No.
IN THE

Supreme Court of the United States
————
PERSONALWEB TECHNOLOGIES, LLC,
Petitioner,
v.
PATREON, INC., ET AL.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

————
PETITION FOR A WRIT OF CERTIORARI
————
MICHAEL A. SHERMAN
JEFFREY F. GERSH
WESLEY W. MONROE
STUBBS, ALDERTON &
MARKILES, LLP
15260 Ventura Blvd.
20th Floor
Sherman Oaks, CA 91403
(818) 444-4500

JEFFREY A. LAMKEN
Counsel of Record
ROBERT K. KRY
KENNETH E. NOTTER III
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioner

WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTIONS PRESENTED
This Court has repeatedly held that, absent guidance
from Congress, courts should not create special procedural rules for patent cases or devise novel preclusion
doctrines that stray beyond the traditional bounds of
claim and issue preclusion. Nonetheless, over the past
seven years, the Federal Circuit has created and then
repeatedly expanded a special, patent-specific preclusion
doctrine that it attributes to this Court’s 114-year-old
decision in Kessler v. Eldred, 206 U.S. 285 (1907)—a case
this Court has not cited for almost 70 years. The Federal
Circuit now routinely applies its so-called “Kessler doctrine” to reject suits like this one that would survive
under ordinary preclusion principles.
The questions presented are:
1. Whether the Federal Circuit correctly interpreted
Kessler to create a freestanding preclusion doctrine that
may apply even when claim and issue preclusion do not.
2. Whether the Federal Circuit properly extended its
Kessler doctrine to cases where the prior judgment was a
voluntary dismissal.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner PersonalWeb Technologies, LLC, was a
plaintiff in the district court and appellant in the court of
appeals.
Respondents Patreon, Inc., Dictionary.com, LLC, Vox
Media, Inc., Vice Media, LLC, Oath Inc., Buzzfeed, Inc.,
PopSugar, Inc., and Ziff Davis, LLC were defendants in
the district court and appellees in the court of appeals.
Respondents Amazon.com, Inc., and Amazon Web Services, Inc., were intervenors in the court of appeals.
Level 3 Communications, LLC, was a plaintiff in the
district court.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioner PersonalWeb Technologies, LLC, states that its parent company
is Kinetech, Inc., and that no publicly held company owns
10% or more of its stock.

iv
RELATED PROCEEDINGS
The following proceedings are directly related to this
case within the meaning of Rule 14.1(b)(iii):
x In re PersonalWeb Technologies LLC, No. 20191918 (Fed. Cir.), judgment entered on June 17, 2020;
x In re PersonalWeb Technologies LLC, et al., Patent
Litigation, No. 18-MD-02834-BLF (N.D. Cal.), judgment entered on April 22, 2019;
x PersonalWeb Technologies LLC v. Patreon, Inc.,
No. 5:18-cv-05599-BLF (N.D. Cal.), judgment entered
on April 22, 2019;
x PersonalWeb Technologies LLC v. Dictionary.com,
LLC, No. 5:18-cv-05606-BLF (N.D. Cal.), judgment
entered on April 22, 2019;
x PersonalWeb Technologies LLC v. Vox Media, Inc.,
No. 5:18-cv-05969-BLF (N.D. Cal.), judgment entered
on April 22, 2019;
x PersonalWeb Technologies LLC v. Vice Media, LLC,
No. 5:18-cv-05970-BLF (N.D. Cal.), judgment entered on April 22, 2019;
x PersonalWeb Technologies LLC v. Oath, Inc., No.
5:18-cv-06044-BLF (N.D. Cal.), judgment entered
on April 22, 2019;
x PersonalWeb Technologies LLC v. Buzzfeed, Inc.,
No. 5:18-cv-06046-BLF (N.D. Cal.), judgment entered on April 22, 2019;
x PersonalWeb Technologies LLC v. PopSugar, Inc.,
No. 5:18-cv-06612-BLF (N.D. Cal.), judgment entered
on April 22, 2019;
x PersonalWeb Technologies LLC v. Ziff Davis, LLC,
No. 5:18-cv-07119-BLF (N.D. Cal.), judgment entered
on April 22, 2019.

TABLE OF CONTENTS
Page
Opinions Below.............................................................
1
Statement of Jurisdiction ...........................................
1
Constitutional and Statutory
Provisions Involved ................................................
2
Preliminary Statement ...............................................
2
Statement ......................................................................
4
I. Relevant Legal Principles ..............................
4
A. Claim and Issue Preclusion .....................
4
B. The Kessler Doctrine ................................
6
II. Proceedings Below ..........................................
9
A. PersonalWeb’s Patented
Technology .................................................
9
B. PersonalWeb’s Voluntary Dismissal
of Its First Suit Against Amazon ............ 10
C. Proceedings in the District Court ........... 10
D. The Federal Circuit’s Decision ................ 11
Reasons for Granting the Petition ............................ 13
I. The Court Should Decide Whether
Kessler Remains a Freestanding
Preclusion Doctrine ......................................... 15
A. Kessler’s Status as a Separate
Preclusion Doctrine Presents
an Important Question ............................. 15
1. The Federal Circuit’s Kessler
Doctrine Is an Impermissible
Patent-Specific Preclusion Rule........ 15
2. The Issue Is Recurring and Ripe
for Review ............................................
(v)

19

vi
TABLE OF CONTENTS—Continued
Page
B. The Federal Circuit’s Modern
Resurrection of Kessler Is
Erroneous ................................................... 22
C. This Case Is an Excellent Vehicle .......... 28
II. At a Minimum, the Court Should Reject
Kessler’s Application to Voluntary
Dismissals ......................................................... 29
Conclusion ..................................................................... 32
Appendix A – Opinion of the Court
of Appeals (June 17, 2020) ..................................... 1a
Appendix B – Order of the District Court
(Mar. 13, 2019) ......................................................... 27a
Appendix C – Order of the Court of Appeals
Denying Rehearing and Rehearing
En Banc (Nov. 10, 2020) ......................................... 64a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
ABS Glob., Inc. v. Cytonome/ST, LLC,
984 F.3d 1017 (Fed. Cir. 2021) ....................... 9, 19
Adaptix, Inc. v. AT&T Mobility LLC:
No. 6:12-cv-17, 2015 WL 12696204
(E.D. Tex. May 12, 2015) .............................. 20
No. 5:14-cv-1379, 2016 WL 948960
(N.D. Cal. Mar. 14, 2016).............................. 20
Adobe Sys. Inc. v. Wowza Media Sys., LLC,
72 F. Supp. 3d 989 (N.D. Cal. 2014)................. 20
Albrecht v. Herald Co., 390 U.S. 145 (1968) ........ 26
Arizona v. California, 530 U.S. 392 (2000) ..... passim
Asahi Glass Co. v. Pentech Pharms., Inc.,
289 F. Supp. 2d 986 (N.D. Ill. 2003)................. 32
Beacon Theatres, Inc. v. Westover,
359 U.S. 500 (1959) .............................................
7
Bigelow v. Old Dominion Copper Mining
& Smelting Co., 225 U.S. 111 (1912) ................
6
Blonder-Tongue Labs., Inc. v. Univ.
of Ill. Found., 402 U.S. 313 (1971) ............. passim
Brain Life, LLC v. Elekta Inc.,
746 F.3d 1045 (Fed. Cir. 2014) ................... passim
Brownback v. King, 141 S. Ct. 740 (2021) ...........
4
CFL Techs. LLC v. Osram Sylvania, Inc.,
No. 18-cv-1445, 2019 WL 2995815
(D. Del. July 9, 2019).......................................... 19
Dickinson v. Zurko, 527 U.S. 150 (1999) ............. 16
eBay Inc. v. MercExchange, LLC,
547 U.S. 388 (2006) .......................................... 15, 27

viii
TABLE OF AUTHORITIES—Continued
Page(s)
EEOC v. Waffle House, Inc.,
534 U.S. 279 (2002) ............................................. 32
Finjan, Inc. v. Blue Coat Sys., LLC,
230 F. Supp. 3d 1097 (N.D. Cal. 2017)............. 20
Hart Steel Co. v. R.R. Supply Co.,
244 U.S. 294 (1917) .............................................
7
Improved Search LLC v. Microsoft Corp.,
387 F. Supp. 3d 422 (D. Del. 2019) ................... 20
Indivior Inc. v. Dr. Reddy’s Labs. S.A.:
No. 17-cv-7111, 2018 WL 3421328
(D.N.J. July 13, 2018) ................................... 20
No. 17-cv-7111, 2018 WL 3496643
(D.N.J. July 20, 2018) ................................... 20
Intel Corp. v. Teva Innovations, Inc.,
No. 3:18-cv-2848, 2021 WL 783560
(N.D. Cal. Mar. 1, 2021) .................................... 19
JumpSport, Inc. v. Academy, Ltd.,
No. 6:17-cv-645, 2018 WL 10124888
(E.D. Tex. Sept. 6, 2018) ................................... 20
Kerotest Mfg. Co. v. C-O-Two Fire Equip.
Co., 342 U.S. 180 (1952) ..................................... 7, 19
Kessler v. Eldred, 206 U.S. 285 (1907) ........... passim
Lawlor v. Nat’l Screen Serv. Corp.,
349 U.S. 322 (1955) ................................ 5, 18, 25, 31
Lucky Brand Dungarees, Inc.
v. Marcel Fashions Grp., Inc.,
140 S. Ct. 1589 (2020)................................... passim
MGA, Inc. v. Gen. Motors Corp.,
827 F.2d 729 (Fed. Cir. 1987) .............. 8, 19, 24, 30
Mentor Graphics Corp. v. EVE-USA,
Inc., 851 F.3d 1275 (Fed. Cir. 2017) .............. 8, 19

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Mirror Worlds Techs., LLC v. Apple Inc.,
No. 6:13-cv-419, 2015 WL 6750306
(E.D. Tex. July 7, 2015) ..................................... 20
Nevada v. United States, 463 U.S. 110 (1983) ....
4
Octane Fitness, LLC v. ICON Health &
Fitness, Inc., 572 U.S. 545 (2014) .................... 16
PPC Broadband, Inc. v. Corning Optical
Commc’ns RF, LLC, 193 F. Supp. 3d 133
(N.D.N.Y. 2016) .................................................. 20
Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89 (1984) ........................ 29
Plymouth Rubber Co. v. Minn. Min. & Mfg.
Co., 321 F.2d 151 (1st Cir. 1963)....................... 23
In re Provider Meds, LLC, 907 F.3d 845
(5th Cir. 2018) ..................................................... 21
Rubber Tire Wheel Co. v. Goodyear Tire &
Rubber Co., 232 U.S. 413 (1914) .......................
7
Ryan Data Exch., Ltd. v. Graco Inc.,
No. 4:14-cv-198, 2015 WL 12516158
(S.D. Iowa Jan. 20, 2015) ................................... 20
SCA Hygiene Prods. Aktiebolag v.
First Quality Baby Prods., LLC:
137 S. Ct. 954 (2017) ...................................... 16
807 F.3d 1311 (Fed. Cir. 2015)
(en banc) .................................................... 19
Senju Pharm. Co. v. Apotex Inc.,
746 F.3d 1344 (Fed. Cir. 2014) ......................... 19
SimpleAir, Inc. v. Google LLC:
884 F.3d 1160 (Fed. Cir. 2018) ................... 8, 17, 19
204 F. Supp. 3d 908 (E.D. Tex. 2016) .............. 20

x
TABLE OF AUTHORITIES—Continued
Page(s)
Sowinski v. Cal. Air Res. Bd.,
971 F.3d 1371 (Fed. Cir. 2020) ...................... 28, 29
SpeedTrack, Inc. v. Office Depot, Inc.:
791 F.3d 1317 (Fed. Cir. 2015) ................... passim
No. 07-cv-3602, 2014 WL 1813292
(N.D. Cal. May 6, 2014) ................................ 20
St. Clair Intell. Prop. Consultants Inc.
v. Samsung Elecs. Co., No. 12-cv-69,
2020 WL 6799261 (D. Del. Nov. 19, 2020) ........ 19
State Oil Co. v. Khan, 522 U.S. 3 (1997) ........... 26, 27
Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83 (1998) ............................................... 29
Taylor v. Sturgell, 553 U.S. 880 (2008) .............. 4, 17
Tech. Props. Ltd. v. Barnes & Noble, Inc.,
No. 3:12-cv-3863, 2015 WL 12977074
(N.D. Cal. May 31, 2015) ................................... 20
Telebrands Corp. v. Nat’l Express, Inc.,
No. 12-cv-6671, 2014 WL 4930897
(D.N.J. Oct. 2, 2014) ........................................... 20
Teva Pharms. USA, Inc. v. Sandoz, Inc.,
574 U.S. 318 (2015) ............................................. 16
Triplett v. Lowell, 297 U.S. 638 (1936) ...... 5, 6, 23, 26
Trs. of Boston Univ. v. Kingbright Elec.
Co., 427 F. Supp. 3d 246 (D. Mass. 2019) ........... 19
V & S Ice Mach. Co. v. Eastex Poultry Co.,
381 F.2d 303 (5th Cir. 1967) .............................. 23
Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292 (2016)......................................... 18
Xiaohua Huang v. Huawei Techs. Co.,
787 F. App’x 723 (Fed. Cir. 2019) .................. 9, 19

xi
TABLE OF AUTHORITIES—Continued
Page(s)
CONSTITUTIONAL PROVISIONS
AND STATUTES
U.S. Const. amend. XI ...........................................
28 U.S.C. § 1254(1) ..................................................

29
2

OTHER AUTHORITIES
Jay Kesan & Gwendolyn Ball, How Are
Patent Cases Resolved? An Empirical
Examination of the Adjudication and
Settlement of Patent Disputes,
84 Wash. U. L. Rev. 237 (2006) ........................ 31
Mark Lemley, Rational Ignorance
at the Patent Office, 95 Nw. U.
L. Rev. 1495 (2001)............................................. 31
Resp. Br. in Kessler v. Eldred, No. 196
(Jan. 1907) ........................................................... 23
Restatement (Second) of Judgments (1982) ..... 4, 32
Stephen Shapiro, et al., Supreme Court
Practice (10th ed. 2013) ..................................... 22
Charles Wright & Arthur Miller,
Federal Practice and Procedure
(3d ed. rev. 2020) ..................................... 4, 5, 25, 31

IN THE

Supreme Court of the United States
————

PERSONALWEB TECHNOLOGIES, LLC,
Petitioner,
v.
PATREON, INC., ET AL.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
PersonalWeb Technologies, LLC, respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Federal Circuit in
this case.
OPINIONS BELOW
The court of appeals’ opinion (App., infra, 1a-26a) is
reported at 961 F.3d 1365. The district court’s decision
(App., infra, 27a-63a) is available at 2019 WL 1455332.
STATEMENT OF JURISDICTION
The court of appeals entered its decision on June 17,
2020. App., infra, 4a. The court denied rehearing and
rehearing en banc on November 10, 2020. Id. at 68a. On
March 19, 2020, by general order, this Court extended

2
the time to file this petition to April 9, 2021. This Court
has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
There are no constitutional or statutory provisions involved in this case.
PRELIMINARY STATEMENT
This Court has repeatedly told the Federal Circuit not
to invent special procedural rules for patent cases absent
clear guidance from Congress. And just last Term, the
Court reiterated that courts should not improvise novel
preclusion doctrines that stray beyond the traditional
bounds of claim and issue preclusion.
Over the past decade, the Federal Circuit has managed to disregard both those principles, creating and then
expanding a novel species of preclusion that applies solely
to patent cases. Invoking this Court’s 114-year-old decision in Kessler v. Eldred, 206 U.S. 285 (1907)—a case this
Court has not cited for almost 70 years—the Federal Circuit has created a new category of preclusion known as
the “Kessler doctrine” that permits defendants to obtain
the benefits of both claim and issue preclusion despite
satisfying the requirements of neither.
This petition arises from the Federal Circuit’s latest
and most extreme extension of that doctrine. PersonalWeb holds patents for a groundbreaking data management technology. It initially sued Amazon for infringing
the patents, but voluntarily dismissed the suit early on
after learning that the potential damages made the suit
uneconomic. PersonalWeb then sued different defendants for infringement that occurred after the first action.
Neither claim nor issue preclusion forecloses those
claims. Claim preclusion poses no bar, because claims for

3
infringement that occurred after the first case could not
have been brought in that earlier action. Issue preclusion does not apply either, because PersonalWeb’s voluntary dismissal did not decide any issues at all.
That did not stop the Federal Circuit. Citing its socalled Kessler doctrine, the court held that PersonalWeb’s
prior voluntary dismissal precluded these suits. Recognizing that traditional preclusion principles could not support that result, the court announced that “[t]he Kessler
doctrine * * * ‘fills the gap’ left by claim and issue preclusion.” App., infra, 20a. That “gap,” however, is just a
pejorative way of describing the traditional boundaries of
claim and issue preclusion—boundaries that control outcomes in every other area of the law, in every other court
of appeals, except patent cases in the Federal Circuit.
The decision below is the latest installment in the Federal Circuit’s ever-expanding Kessler jurisprudence. That
jurisprudence is impossible to reconcile with this Court’s
precedents. Kessler did not invent some broad new category of preclusion. Rather, it applied ordinary issue preclusion while relaxing the mutuality requirement—the
rule that both cases must involve the same parties—that
still generally applied at the time. Now that the Court has
abolished the mutuality requirement for issue preclusion,
Kessler no longer has independent force. Yet the Federal Circuit has repurposed the case into a freestanding
preclusion doctrine that applies even when claim and issue
preclusion do not. In this case, the court applied the doctrine to a voluntary dismissal that decided no issue of
any sort. This Court should grant review and confirm
that Kessler does not create a novel form of preclusion
beyond ordinary claim and issue preclusion—or at least
confine the doctrine to appropriate bounds.

4
STATEMENT
I. RELEVANT LEGAL PRINCIPLES
This case concerns the preclusive effect of a prior judgment voluntarily dismissing a case.
A. Claim and Issue Preclusion
“The preclusive effect of a federal-court judgment is
determined by federal common law,” which “this Court
has ultimate authority to determine and declare.” Taylor
v. Sturgell, 553 U.S. 880, 891 (2008). The Court has recognized two types of preclusion: claim preclusion (sometimes called res judicata) and issue preclusion (sometimes called collateral estoppel).
1. Claim preclusion “prevents parties from raising issues that could have been raised and decided in a prior
action—even if they were not actually litigated.” Lucky
Brand Dungarees, Inc. v. Marcel Fashions Grp., Inc.,
140 S. Ct. 1589, 1594 (2020); see also Brownback v. King,
141 S. Ct. 740, 747 n.3 (2021). “The principle underlying
the rule of claim preclusion is that a party who once has
had a chance to litigate a claim before an appropriate
tribunal usually ought not to have another chance to do
so.” Restatement (Second) of Judgments ch. 1 (1982).
Claim preclusion traditionally requires mutuality of
parties. “[A] judgment [i]s binding only on parties and
persons in privity with them, and a judgment c[an] be
invoked only by parties and their privies.” 18A Charles
Wright & Arthur Miller, Federal Practice and Procedure
§ 4463 (3d ed. rev. 2020); see also Nevada v. United States,
463 U.S. 110, 143 (1983) (mutuality “remain[s] a part of
the doctrine”). Exceptions apply only “in limited circumstances.” Taylor, 553 U.S. at 898.
Claim preclusion also requires that the two actions involve the “same claim.” Lucky Brand, 140 S. Ct. at 1594.

5
“Suits involve the same claim * * * when they ‘aris[e]
from the same transaction’ or involve a ‘common nucleus
of operative facts.’ ” Id. at 1595 (citations omitted). Because of that requirement, “[c]laim preclusion generally
‘does not bar claims that are predicated on events that
postdate’ ” the prior action. Id. at 1596; see also Lawlor
v. Nat’l Screen Serv. Corp., 349 U.S. 322, 328 (1955) (no
claim preclusion where “[t]he conduct presently complained of was all subsequent to the [prior] judgment”).
That rule respects claim preclusion’s underlying rationale:
A judgment “cannot be given the effect of extinguishing
claims which did not even then exist and which could not
possibly have been sued upon in the previous case.”
Lawlor, 349 U.S. at 328.
2. Issue preclusion is a related but more specific doctrine. It “precludes a party from relitigating an issue
actually decided in a prior case and necessary to the
judgment.” Lucky Brand, 140 S. Ct. at 1594 (emphasis
added). Thus, while claim preclusion requires only that
the party could have asserted a claim, issue preclusion
requires that the issue have been actually and necessarily
decided. For that reason, “consent judgments ordinarily
support claim preclusion but not issue preclusion.” Arizona v. California, 530 U.S. 392, 414 (2000). “[T]he central characteristic of a consent judgment is that the court
has not actually resolved the substance of the issues presented.” 18A Wright & Miller, supra, § 4443.
For much of this Nation’s history, issue preclusion required the same mutuality of parties as claim preclusion.
In Triplett v. Lowell, 297 U.S. 638 (1936), for example, the
Court held that patent invalidity rulings in one suit had no
preclusive effects in another unless “both suits are between the same parties or their privies.” Id. at 645. That
approach reflected the “principle of general elementary

6
law that the estoppel of a judgment must be mutual.”
Bigelow v. Old Dominion Copper Mining & Smelting
Co., 225 U.S. 111, 127 (1912).
In 1971, this Court changed course in Blonder-Tongue
Laboratories, Inc. v. University of Illinois Foundation,
402 U.S. 313 (1971). Canvassing decisions over several
decades, the Court observed that “the court-produced
doctrine of mutuality of estoppel is undergoing fundamental change in the common-law tradition.” Id. at 322327. The Court concluded that “the principle of mutuality of estoppel expressed in Triplett v. Lowell is today
out of place” and overruled the decision. Id. at 350. As a
result, a judgment that resolves an issue against a party
in one case may now be used against that party in other
cases, even where the opposing party is different.
B. The Kessler Doctrine
This case concerns the so-called Kessler doctrine—
a doctrine the Federal Circuit traces to this Court’s 114year-old decision in Kessler v. Eldred, 206 U.S. 285 (1907).
The Court’s opinion in Kessler occupies less than three
full pages of the U.S. Reports and does not cite a single
legal authority. Id. at 287-290. Those features have led
to considerable uncertainty over the case’s meaning.
1. Kessler had its origins in a suit that Eldred filed
against Kessler for infringing his patent for an electric
lighter. 206 U.S. at 285. The trial court dismissed after
finding that Kessler’s lighters did not infringe. Id. at
285-286. Years later, Eldred sued one of Kessler’s customers for infringing the same patent by using the same
lighters. Id. at 286. That suit intimidated other customers, so Kessler sought to enjoin Eldred from bringing
such suits. Ibid.

7
This Court held that Kessler was entitled to the injunction. In the first suit, the Court noted, the parties had
squarely litigated the issue of infringement, and “[o]n the
issue thus joined there was final judgment for Kessler.”
Kessler, 206 U.S. at 288. In the Court’s view, that judgment of non-infringement “settled finally and everywhere,
and so far as Eldred * * * was concerned, that Kessler
had the right to manufacture, use and sell the electric
cigar lighter before the court.” Ibid.
The Court did not decide whether Kessler’s customers
could invoke the prior judgment as a defense. Kessler, 206
U.S. at 288. Instead, the Court held that, “by bringing a
suit against one of Kessler’s customers, Eldred has violated the right of Kessler” himself. Id. at 289. “No one
wishes to buy anything, if with it he must buy a law suit,”
so Eldred’s suit “diminish[ed] Kessler’s opportunities for
sale.” Ibid. That result was “manifestly in violation of
the obligation of Eldred, and the corresponding right of
Kessler, established by the judgment.” Ibid.
2. This Court cited Kessler a handful of times during
the early twentieth century. See, e.g., Rubber Tire Wheel
Co. v. Goodyear Tire & Rubber Co., 232 U.S. 413, 418-419
(1914); Hart Steel Co. v. R.R. Supply Co., 244 U.S. 294,
298-299 (1917). In 1952, the Court cited Kessler in a footnote. See Kerotest Mfg. Co. v. C-O-Two Fire Equip. Co.,
342 U.S. 180, 185-186 & n.5 (1952); cf. Beacon Theatres,
Inc. v. Westover, 359 U.S. 500, 512 n.2 (1959) (Stewart, J.,
dissenting) (citing case for unrelated proposition). The
Court has not cited the case again in nearly 70 years.
After this Court abandoned the mutuality requirement
for issue preclusion in its 1971 Blonder-Tongue decision,
Kessler lay dormant in the courts of appeals too. In 1987,
the Federal Circuit cited Kessler to predict how Michigan
courts would interpret Michigan preclusion law (which at

8
the time still generally required mutuality). See MGA,
Inc. v. Gen. Motors Corp., 827 F.2d 729, 733-735 (Fed.
Cir. 1987), cert. denied, 484 U.S. 1009 (1988). After MGA,
the Federal Circuit did not cite Kessler again in a published opinion for nearly 30 years.
All that changed when the Federal Circuit decided
Brain Life, LLC v. Elekta Inc., 746 F.3d 1045 (Fed. Cir.
2014). In that case, Brain Life sued Elekta for infringing
certain method claims. Brain Life’s licensor, however,
had lost an earlier suit alleging that the same products
infringed apparatus claims in the same patent. The Federal Circuit recognized that claim preclusion did not bar
claims for infringement occurring after the prior action.
Id. at 1053-1054. It also recognized that issue preclusion
did not apply because the prior suit did not decide infringement of the method claims—only the apparatus
claims. Id. at 1054-1055.
Nonetheless, in the Federal Circuit’s view, “[t]here exists a separate and distinct doctrine, known as the Kessler
Doctrine, that precludes some claims that are not otherwise barred by claim or issue preclusion.” Brain Life,
746 F.3d at 1055-1056. The court deemed that doctrine
“directly applicable.” Id. at 1058. It acknowledged that
“the continuing force of the Kessler Doctrine * * * may
be questionable,” but deemed itself “bound by it.” Ibid.
The Federal Circuit’s resurrection of Kessler in Brain
Life—and its holding that Kessler may apply even where
claim and issue preclusion do not—has led to an explosion of cases invoking the doctrine over the past seven
years. See, e.g., SpeedTrack, Inc. v. Office Depot, Inc.,
791 F.3d 1317, 1323-1329 (Fed. Cir. 2015), cert. denied, 577
U.S. 1063 (2016); SimpleAir, Inc. v. Google LLC, 884 F.3d
1160, 1169-1170 (Fed. Cir. 2018); Mentor Graphics Corp.
v. EVE-USA, Inc., 851 F.3d 1275, 1301 (Fed. Cir. 2017),

9
cert. dismissed, 139 S. Ct. 44 (2018); Xiaohua Huang v.
Huawei Techs. Co., 787 F. App’x 723, 724 (Fed. Cir.
2019); ABS Glob., Inc. v. Cytonome/ST, LLC, 984 F.3d
1017, 1022 (Fed. Cir. 2021).
II. PROCEEDINGS BELOW
This case concerns the Federal Circuit’s latest—and
most extreme—application of the Kessler doctrine.
A. PersonalWeb’s Patented Technology
PersonalWeb owns a family of patents directed to a
longstanding problem in the way computer networks
identify data. In the mid-1990s, the conventional method
for identifying data did not link the data names used for
identification to the contents of the data items. App.,
infra, 6a. “The same file name in two different folders
could refer to different data items, or two different file
names could refer to the same data item.” Ibid. Duplicative data clogged networks, impairing “the efficiency and
integrity of data processing systems.” Ibid.
PersonalWeb’s patents solved that problem through
the “True Name” system. App., infra, 6a. That system
creates a “substantially unique” identifier for each data
item that depends only on the contents of the data itself.
Id. at 6a-7a. The True Name system thus enables computers on a network to store, manage, and access data
using a content-specific identifier.
The True Name system works by using a “hash function” —a “mathematical function that reduces a data
block of arbitrary size and converts it into a relatively
small, fixed-length sequence.” App., infra, 7a. First, a
large file is partitioned into smaller segments. Ibid. The
system then applies a hash function to each segment,
strings the resulting values together, and applies another

10
hash function to the entire string. Ibid. The resulting
value is the “True Name” of the file. Ibid.
B. PersonalWeb’s Voluntary Dismissal of Its First
Suit Against Amazon
In 2011, PersonalWeb sued Amazon in the Eastern
District of Texas for infringement. App., infra, 7a. It
accused Amazon of infringing the True Name patents
through a service known as “Simple Storage Service” or
“S3.” Id. at 8a.
In 2014, before any dispositive motions were filed,
PersonalWeb voluntarily dismissed its claims with prejudice. App., infra, 11a. It did so after learning that “the
potential damages that could be obtained for patent infringement did not warrant the expense of trial.” C.A.
App. 599-600.
Recognizing that PersonalWeb’s voluntary dismissal
did not actually adjudicate any issues, Amazon insisted
on reserving its “right to challenge validity, infringement,
and/or enforceability of the patents-in-suit * * * in any
future proceeding.” App., infra, 41a. The district court
entered a final judgment. Id. at 11a.
C. Proceedings in the District Court
In 2018, PersonalWeb sued several Amazon customers
that used the S3 service for infringing the True Name
patents. App., infra, 11a. Amazon intervened and sought
a declaratory judgment that the 2014 voluntary dismissal
precluded the claims. Id. at 12a. The Judicial Panel on
Multidistrict Litigation consolidated the cases in the
Northern District of California. Ibid. The district court
then stayed all but Amazon’s declaratory judgment action and one representative customer case. Ibid.
The district court granted summary judgment to Amazon. App., infra, 27a-63a. Amazon did not argue that Per-

11
sonalWeb’s voluntary dismissal had any issue-preclusive
effects. Id. at 37a. And while the district court held that
claim preclusion barred claims for infringement that occurred before the 2014 judgment, it recognized that claim
preclusion could not bar claims for infringement occurring
after that judgment. Id. at 40a-58a.
Nonetheless, the district court held that the Federal
Circuit’s Kessler doctrine barred those claims. App.,
infra, 58a-62a. The court rejected PersonalWeb’s argument that “Kessler requires [an] actual adjudication of
non-infringement”—an adjudication that was present in
Kessler but missing here, given PersonalWeb’s voluntary
dismissal. Id. at 61a. Instead, the court concluded that
“the Kessler doctrine bars PersonalWeb’s current suit
* * * for all claims related to use of S3 after the prior
final judgment.” Id. at 62a.
The district court’s summary judgment ruling resolved
all claims in eight of the consolidated customer cases.
App., infra, 15a. The court therefore entered final judgments in those cases. Ibid.
D. The Federal Circuit’s Decision
The court of appeals affirmed. App., infra, 1a-26a.
Beginning with claim preclusion, the court held that “claim
preclusion principles bar PersonalWeb from pursuing infringement claims * * * for actions predating the judgment in the [prior] case.” Id. at 20a. PersonalWeb argued that claim preclusion did not apply because the
second suit involved a “different feature of Amazon’s S3
system.” Id. at 15a. The court disagreed. “At most,” it
held, PersonalWeb “emphasized different facts in support of a different theory of infringement.” Id. at 19a.
The court therefore affirmed the ruling that claim preclusion applied—but only with respect to infringement “predating the judgment in the [first] case.” Id. at 20a.

12
The court of appeals next turned to the Kessler doctrine. “In addition to the two traditional pillars of preclusion law,” it opined, “there is a separate and less frequently invoked doctrine that derives from the Supreme
Court’s decision in Kessler v. Eldred.” App., infra, 20a.
Kessler can apply, it held, even if claim and issue preclusion do not. Ibid. Claim preclusion, for example, “cannot apply to acts of alleged infringement that occur after
the final judgment in the earlier suit.” Ibid. And issue
preclusion will not protect post-judgment conduct if “the
requirements of issue preclusion”—such as actual decision of the issue in the prior case—“are not satisfied.”
Ibid. In the court’s view, however, “[t]he Kessler doctrine * * * ‘fills the gap’ left by claim and issue preclusion.” Ibid. The Court held that the Kessler doctrine
barred PersonalWeb’s claims even though claim and issue
preclusion did not. Id. at 26a.
The court of appeals rejected PersonalWeb’s argument that “the Kessler doctrine does not apply in this
case because Amazon is not an ‘adjudged non-infringer,’ ”
as the prior suit was voluntarily dismissed without adjudication of any issues. App., infra, 20a-21a. The court
deemed that argument contrary to Federal Circuit cases
like Brain Life, which applied Kessler to “claims that
were brought or ‘could have been brought’ in the prior
action.” Id. at 21a. The court found no case that “requires that issues of noninfringement or invalidity be
actually litigated before the Kessler doctrine can be invoked.” Id. at 22a.
The court asserted that “[t]he policy that drove the
Supreme Court’s decision in Kessler would be ill-served”
by requiring an actual finding of non-infringement. App.,
infra, 24a. The traditional limits on claim and issue preclusion, it opined, “would leave the patentee free to en-

13
gage in the same type of harassment that the Supreme
Court sought to prevent.” Id. at 25a. The court also
rejected PersonalWeb’s argument that applying Kessler
to voluntary dismissals would “interfere with the ability
of parties to resolve patent disputes” through settlements.
Ibid. Patent owners, it suggested, could “fram[e] the dismissal agreement to preserve any such rights that the
defendant is willing to agree to.” Id. at 26a.
The court of appeals thus held that Kessler barred
PersonalWeb’s claims. “Under that doctrine, the stipulated dismissal with prejudice conferred upon Amazon a
limited trade right to continue producing, using, and selling Amazon S3 without further harassment from PersonalWeb, either directly or through suits against Amazon’s customers for using that product.” App., infra, 26a.
REASONS FOR GRANTING THE PETITION
The Federal Circuit’s exhumation and expansion of
Kessler over the past seven years flouts this Court’s
repeated admonitions and contradicts controlling precedent. This Court has repeatedly held that, absent some
contrary indication from Congress, courts should apply
the same procedural rules to patent cases that they apply
to other matters. The Court has also repeatedly held
that courts should respect the settled bounds of claim and
issue preclusion and not invent novel preclusion theories
unmoored from those traditional categories.
The Federal Circuit now violates both those proscriptions. That court applies a unique brand of preclusion
that applies to patent cases and patent cases alone. And
it relies on that doctrine to bar suits that would survive
both claim and issue preclusion. Indeed, the court applies
its newfound preclusion doctrine precisely because it perceives a “gap” in the traditional rules—and it uses the

14
doctrine to fill that “gap” whenever traditional rules produce a result the court disfavors.
The departure from this Court’s precedents could not
be more stark. Just last Term, the Court unanimously
rejected the Second Circuit’s creation of a novel species
of preclusion in the trademark context. Lucky Brand
Dungarees, Inc. v. Marcel Fashions Grp., Inc., 140 S. Ct.
1589, 1595 (2020). The Court faulted the Second Circuit
for creating “a standalone category of res judicata, unmoored from the two guideposts of issue preclusion and
claim preclusion.” Ibid. Yet the Federal Circuit persists
in doing in the patent context precisely what this Court
prohibited in the trademark context.
Nothing in Kessler supports, much less compels, that
anomalous approach. Kessler is an anachronism from an
era when courts normally required mutuality for issue
preclusion. The Court’s holding—that a patent owner
could not sue a manufacturer for infringement, lose on
the merits, and then relitigate the same issue against the
manufacturer’s customers—is most naturally read as an
early instance of non-mutual issue preclusion, a holding
that ceased to have independent force once the Court
endorsed non-mutual issue preclusion more generally in
Blonder-Tongue Laboratories, Inc. v. University of Illinois Foundation, 402 U.S. 313 (1971). Yet the Federal
Circuit persists in repurposing Kessler as a freestanding,
patent-specific “gap-filler” for perceived inadequacies in
settled preclusion law.
This Court’s intervention is urgently needed. This
Court has not cited Kessler in nearly 70 years. The
Federal Circuit did not cite Kessler in a reported federal
preclusion case until its 2014 decision in Brain Life, LLC
v. Elekta Inc., 746 F.3d 1045 (Fed. Cir. 2014). In the past
seven years, however, the Federal Circuit’s reanimation

15
of the doctrine has spawned a deluge of cases where
parties who fail to qualify for claim or issue preclusion
try their luck with Kessler instead. That jurisprudence
drives an arbitrary wedge between the preclusion rules
that apply in patent cases and the rules that govern every
other case throughout the Nation. The Court should
grant the petition and put an end to the Federal Circuit’s
groundless departure from uniform principles.
I. THE COURT SHOULD DECIDE WHETHER KESSLER
REMAINS A FREESTANDING PRECLUSION DOCTRINE
Kessler is an anachronism from the era before nonmutual issue preclusion. But the Federal Circuit has now
resurrected the case and expanded it into a freestanding
preclusion doctrine that enables defendants to avoid the
customary requirements of claim and issue preclusion.
Those decisions wreak havoc on preclusion law in the
Federal Circuit.
A. Kessler’s Status as a Separate Preclusion Doctrine Presents an Important Question
The Federal Circuit’s reinvention of Kessler as a novel
category of preclusion applicable only to patent cases
defies this Court’s precedent and places Federal Circuit
law at odds with the rules that govern every other case
throughout the Nation. In case after case, patent owners
confront an ever-expanding patent-specific preclusion rule
that forecloses suits that would otherwise proceed.
1. The Federal Circuit’s Kessler Doctrine Is an
Impermissible Patent-Specific Preclusion Rule
This Court has repeatedly admonished the Federal
Circuit not to adopt special procedural rules that apply
only in patent cases without clear guidance from Congress. In eBay Inc. v. MercExchange, LLC, 547 U.S. 388
(2006), for example, the Court reversed the Federal Cir-

16
cuit for adopting an injunction standard “unique to patent disputes.” Id. at 393-394. Reviewing the traditional
equitable standards, the Court held that “[t]hese familiar
principles apply with equal force to disputes arising under
the Patent Act.” Id. at 391. “[A] major departure from
the long tradition of equity practice should not be lightly
implied,” and the Court saw “[n]othing in the Patent Act
[that] indicates that Congress intended such a departure.” Id. at 391-392.
Similarly, in SCA Hygiene Products Aktiebolag v.
First Quality Baby Products, LLC, 137 S. Ct. 954 (2017),
this Court rejected the Federal Circuit’s more expansive
version of laches for patent cases. Observing that “[p]atent law is governed by the same common-law principles,
methods of statutory interpretation, and procedural rules
as other areas of civil litigation,” the Court refused to
countenance a “very different patent-law-specific rule.”
Id. at 964; see also Teva Pharms. USA, Inc. v. Sandoz,
Inc., 574 U.S. 318, 324-327 (2015) (no patent-specific rule
for appellate review of factual findings); Octane Fitness,
LLC v. ICON Health & Fitness, Inc., 572 U.S. 545, 557558 (2014) (attorney’s fees); Dickinson v. Zurko, 527 U.S.
150, 165 (1999) (judicial review).
This Court has also repeatedly told courts of appeals
not to invent new preclusion doctrines that stray beyond
traditional claim or issue preclusion. Just last Term,
the Court unanimously reversed the Second Circuit for
adopting a novel doctrine of “defense preclusion” in Lucky
Brand Dungarees, Inc. v. Marcel Fashions Group, Inc.,
140 S. Ct. 1589 (2020). The Court noted that it had “never
explicitly recognized ‘defense preclusion’ as a standalone
category of res judicata, unmoored from the two guideposts of issue preclusion and claim preclusion.” Id. at
1595. “[O]ur case law indicates that any such preclusion

17
of defenses must, at a minimum, satisfy the strictures of
issue preclusion or claim preclusion.” Ibid.
A decade earlier, the Court rejected another novel
preclusion doctrine known as “virtual representation” in
Taylor v. Sturgell, 553 U.S. 880 (2008). Emphasizing the
importance of “ ‘uniform federal rule[s]’ of res judicata,”
the Court “disapprove[d] the theory of virtual representation” because it strayed from “the established grounds for
nonparty preclusion.” Id. at 891, 904 (emphasis added);
see also Arizona v. California, 530 U.S. 392, 414-418
(2000) (rejecting theory that strayed beyond “standard
preclusion doctrine”).
The Federal Circuit’s reincarnation of Kessler defies
those admonitions. The Federal Circuit applies Kessler
as a special preclusion rule to patent cases alone. See
SimpleAir, Inc. v. Google LLC, 884 F.3d 1160, 1170 n.3
(Fed. Cir. 2018) (describing Kessler as a “doctrine[ ] in
patent law”). The Federal Circuit has never applied
Kessler outside that context.
The Federal Circuit also applies Kessler as a third
category of preclusion that strays beyond traditional
claim and issue preclusion. Indeed, in that court’s view,
the whole point of the doctrine is to fill a perceived “gap”
in traditional claim and issue preclusion by enabling
defendants to terminate litigation even though they cannot satisfy the requirements of either doctrine. Brain
Life, 746 F.3d at 1056; see also SpeedTrack, Inc. v. Office
Depot, Inc., 791 F.3d 1317, 1323-1329 (Fed. Cir. 2015)
(Kessler a “necessary supplement to issue and claim preclusion”), cert. denied, 577 U.S. 1063 (2016).
The Federal Circuit’s Kessler doctrine leads to outcomes in patent cases that are squarely contrary to this
Court’s preclusion precedents. Claim preclusion, for

18
example, does not apply to conduct that postdates the
prior action. See Lucky Brand, 140 S. Ct. at 1596 (no
claim preclusion where “the complained-of conduct in the
[second] Action occurred after the conclusion of the
[first] Action”); Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292, 2305 (2016) (claim preclusion “does not
bar claims that are predicated on events that postdate”
the first action); Lawlor v. Nat’l Screen Serv. Corp., 349
U.S. 322, 328 (1955) (judgment cannot “extinguish[ ] claims
which did not even then exist and which could not possibly have been sued upon in the previous case”). Yet the
Federal Circuit routinely finds such claims precluded
under Kessler—sometimes in the very same opinions
where it holds that claim preclusion does not apply. See,
e.g., Brain Life, 746 F.3d at 1053-1054, 1055-1059.
Similarly, while issue preclusion may sometimes apply
to post-judgment conduct, it requires that the issue have
been “actually litigated and determined” in the prior
action. Arizona, 530 U.S. at 414. Yet the Federal Circuit
routinely applies Kessler even where the issues differ
from those previously decided. See, e.g., Brain Life, 746
F.3d at 1054-1059; SpeedTrack, 791 F.3d at 1323-1329.
In this case, the court applied Kessler to a voluntary
dismissal—the paradigmatic disposition that decides no
issues at all. App., infra, 20a-26a.
This Court should not allow that arbitrary state of affairs to persist. There is no reason why courts should
apply one set of preclusion rules in patent cases and a different set everywhere else. Although the Federal Circuit
claims to be preventing “harassment,” Brain Life, 746
F.3d at 1056, what it really objects to is just the ordinary
limits on claim and issue preclusion. If Congress wants
to prescribe special preclusion rules for patent cases, it is

19
free to do so. But courts should not invent patent-specific
rules on their own initiative.
2. The Issue Is Recurring and Ripe for Review
The need for this Court’s intervention is more urgent
than ever. This Court has not cited Kessler for nearly 70
years. See Kerotest Mfg. Co. v. C-O-Two Fire Equip. Co.,
342 U.S. 180, 185-186 & n.5 (1952). Before 2014, the Federal Circuit cited Kessler in a published decision only once,
to interpret Michigan preclusion law that (like federal
law before Blonder-Tongue) still required mutuality. See
MGA, Inc. v. Gen. Motors Corp., 827 F.2d 729, 733-735
(Fed. Cir. 1987), cert. denied, 484 U.S. 1009 (1988).
In the seven years since Brain Life, however, litigation over Kessler has exploded. The Federal Circuit has
cited Kessler numerous times.1 District courts have cited
Kessler even more often.2 Time and again, those courts
dismiss claims that would proceed in any other context.

See App., infra, 1a-26a; ABS Glob., Inc. v. Cytonome/ST, LLC, 984
F.3d 1017, 1022 (Fed. Cir. 2021); Xiaohua Huang v. Huawei Techs.
Co., 787 F. App’x 723, 724 (Fed. Cir. 2019); SimpleAir, Inc. v. Google
LLC, 884 F.3d 1160, 1170 (Fed. Cir. 2018); Mentor Graphics Corp. v.
EVE-USA, Inc., 851 F.3d 1275, 1301 (Fed. Cir. 2017), cert. dismissed,
139 S. Ct. 44 (2018); SCA Hygiene Prods. Aktiebolag v. First Quality
Baby Prods., LLC, 807 F.3d 1311, 1325 (Fed. Cir. 2015) (en banc),
vacated in part, 137 S. Ct. 954 (2017); SpeedTrack, Inc. v. Office
Depot, Inc., 791 F.3d 1317, 1329 (Fed. Cir. 2015), cert. denied, 577
U.S. 1063 (2016); Senju Pharm. Co. v. Apotex Inc., 746 F.3d 1344,
1354-1355 n.1 (Fed. Cir. 2014) (O’Malley, J., dissenting).
2
See App., infra, 27a-63a; Intel Corp. v. Teva Innovations, Inc., No.
3:18-cv-2848, 2021 WL 783560, at *5-*8 (N.D. Cal. Mar. 1, 2021); St.
Clair Intell. Prop. Consultants Inc. v. Samsung Elecs. Co., No. 12cv-69, 2020 WL 6799261, at *6 & n.6 (D. Del. Nov. 19, 2020); Trs. of
Boston Univ. v. Kingbright Elec. Co., 427 F. Supp. 3d 246, 251 (D.
Mass. 2019); CFL Techs. LLC v. Osram Sylvania, Inc., No. 18-cv1

20
The reason for the avalanche of cases is not hard to
imagine. The customary limits on claim and issue preclusion strike a careful balance between avoiding serial litigation and giving plaintiffs with meritorious claims their
day in court. The Kessler doctrine distorts that balance by
applying special rules to patent cases. No court has ever
explained why a copyright or trademark owner should be
entitled to assert claims consistent with ordinary preclusion principles while a patent owner must overcome additional hurdles. Until this Court intervenes, accused in1445, 2019 WL 2995815, at *4 & n.3 (D. Del. July 9, 2019); Improved
Search LLC v. Microsoft Corp., 387 F. Supp. 3d 422, 428 (D. Del.
2019), aff ’d, 813 F. App’x 609 (Fed. Cir. 2020); JumpSport, Inc. v.
Academy, Ltd., No. 6:17-cv-645, 2018 WL 10124888, at *4 (E.D. Tex.
Sept. 6, 2018); Indivior Inc. v. Dr. Reddy’s Labs. S.A., No. 17-cv7111, 2018 WL 3496643, at *6 (D.N.J. July 20, 2018), vacated, 752 F.
App’x 1024 (Fed. Cir. 2018); Indivior Inc. v. Dr. Reddy’s Labs. S.A.,
No. 17-cv-7111, 2018 WL 3421328, at *6 (D.N.J. July 13, 2018), vacated,
752 F. App’x 1024 (Fed. Cir. 2018); Finjan, Inc. v. Blue Coat Sys.,
LLC, 230 F. Supp. 3d 1097, 1104 (N.D. Cal. 2017); Simple Air, Inc. v.
Google Inc., 204 F. Supp. 3d 908, 911-912, 914 (E.D. Tex. 2016),
vacated, 884 F.3d 1160 (Fed. Cir. 2018); PPC Broadband , Inc. v.
Corning Optical Commc’ns RF, LLC, 193 F. Supp. 3d 133, 148
(N.D.N.Y. 2016); Adaptix, Inc. v. Amazon.com, Inc., No. 5:14-cv1379, 2016 WL 948960, at *2, *5 (N.D. Cal. Mar. 14, 2016); Mirror
Worlds Techs., LLC v. Apple Inc., No. 6:13-cv-419, 2015 WL 6750306,
at *4-*5 (E.D. Tex. July 7, 2015); Tech. Props. Ltd. v. Barnes & Noble,
Inc., No. 3:12-cv-3863, 2015 WL 12977074, at *5 (N.D. Cal. May 31,
2015); Adaptix, Inc. v. AT&T Mobility LLC, No. 6:12-cv-17, 2015
WL 12696204, at *6, *21 (E.D. Tex. May 12, 2015); Ryan Data Exch.,
Ltd. v. Graco Inc., No. 4:14-cv-198, 2015 WL 12516158, at *8 n.7
(S.D. Iowa Jan. 20, 2015); Adobe Sys. Inc. v. Wowza Media Sys.,
LLC, 72 F. Supp. 3d 989, 996 (N.D. Cal. 2014); Telebrands Corp. v.
Nat’l Express, Inc., No. 12-cv-6671, 2014 WL 4930897, at *5 (D.N.J.
Oct. 2, 2014); SpeedTrack, Inc. v. Office Depot, Inc., No. 07-cv-3602,
2014 WL 1813292, at *7-*9 (N.D. Cal. May 6, 2014), aff ’d, 791 F.3d
1317 (Fed. Cir. 2015).

21
fringers across the country will continue to invoke Kessler to evade claims that would ordinarily proceed.
The Federal Circuit itself has repeatedly questioned
the Kessler doctrine, while professing to be bound by this
Court’s decision. In Brain Life, the Federal Circuit noted
that Kessler “was handed down by the United States
Supreme Court in the heyday of the federal mutuality of
estoppel rule” and that the Court “may have created the
Kessler Doctrine as an exception to the strict mutuality
requirement that existed at that time.” 746 F.3d at 1057.
Given the abandonment of the mutuality rule in BlonderTongue, “the continuing force of the Kessler Doctrine
* * * may be questionable.” Id. at 1058. Nonetheless, the
court opined that “the Kessler Doctrine exists, and we
are bound by it, even if its viability under current estoppel
law may be of less value now than it was at the time it
was handed down.” Ibid. “We may only apply the law as
it continues to exist.” Ibid.
The Federal Circuit reiterated those sentiments in
SpeedTrack. The patent owner there argued that “Kessler
became unnecessary when the Supreme Court authorized non-mutual collateral estoppel in Blonder-Tongue.”
791 F.3d at 1328. The court responded that “we must
apply the law as it exists.” Id. at 1329. “[W]e must follow
Kessler unless and until the Supreme Court overrules
it * * * .” Ibid. While those sentiments hardly justify the
Federal Circuit’s continuing expansion of the Kessler
doctrine, they underscore the need for review. Only this
Court can correct course.
Because Kessler is a patent-specific doctrine, no modern circuit conflict is likely to emerge. Since Congress
created the Federal Circuit, only one other court of
appeals has ever cited Kessler—and only to predict how
the Federal Circuit would rule. See In re Provider

22
Meds, LLC, 907 F.3d 845, 852 n.21, 853-854 n.32 (5th Cir.
2018), cert. denied, 139 S. Ct. 1347 (2019).
Circuit conflicts almost never arise in patent cases, so
this Court evaluates petitions “largely on the importance
of the questions presented.” Stephen Shapiro, et al.,
Supreme Court Practice § 4.21, at 289 (10th ed. 2013).
That importance is undeniable here. The Federal Circuit
has repeatedly reached results that cannot be reconciled
with this Court’s traditional claim and issue preclusion
precedents. District court cases across the country face
termination as a result. Only this Court can intervene
and put an end to the disarray.
B. The Federal Circuit’s Modern Resurrection of
Kessler Is Erroneous
Nothing in Kessler compels the Federal Circuit’s expansive interpretation. The case is most naturally read
as an early application of non-mutual issue preclusion—a
ruling that ceased to have independent force once the
Court abandoned the mutuality requirement for issue
preclusion in Blonder-Tongue.
1. Kessler readily supports that interpretation. The
first suit in that case ended when the court “found for
Kessler on the issue of non-infringement.” 206 U.S. at
285-286 (emphasis added); see also id. at 288 (court ruled
for Kessler “[o]n the issue thus joined”). Eldred then
sued one of Kessler’s customers for infringing the same
patent by using “identical” products. Id. at 286. There is
no indication that the Court considered the second suit to
raise any new issues. Rather, the plaintiff sought to relitigate the same issue against new defendants. Ibid.3
Eldred’s first suit alleged infringement of “all the claims” of the
same patent. Kessler, 206 U.S. at 285. Eldred contended that the

3

23
Under the mutuality rule that prevailed at the time,
that difference ordinarily would have made issue preclusion inapplicable. See Triplett v. Lowell, 297 U.S. 638,
645 (1936). This Court, however, decided that Eldred
could not avoid preclusion simply by suing Kessler’s customers rather than Kessler himself. “[I]t is Kessler’s
right that those customers should, in respect of the articles before the court in the previous judgment, be let
alone by Eldred, and it is Eldred’s duty to let them alone.
The judgment in the previous case fails of the full effect
which the law attaches to it if this is not so.” Kessler, 206
U.S. at 289 (emphasis added).
Nothing in that discussion suggests the Court was
inventing a wholly new species of preclusion. Rather, the
Court was simply relaxing the mutuality requirement
that otherwise might have prevented issue preclusion
from applying. The Court allowed Kessler to assert his
judgment of non-infringement for the benefit of his customers. Kessler thus is best understood as an early harbinger of the more general rule this Court adopted in
Blonder-Tongue.
2. History confirms that reading. Before BlonderTongue, courts of appeals regularly cited Kessler for the
proposition that a customer could claim the benefit of a
manufacturer’s prior judgment of non-infringement. See,
e.g., V & S Ice Mach. Co. v. Eastex Poultry Co., 381 F.2d
303, 304 (5th Cir. 1967); Plymouth Rubber Co. v. Minn.
Min. & Mfg. Co., 321 F.2d 151, 158 (1st Cir. 1963), cert.
two suits involved different issues in the sense that the first involved
Kessler’s “manufacture and sale” of the product, while the second
involved the purchaser’s “use” of the product—a difference inherent
in the fact that Eldred was now suing Kessler’s customer. Resp. Br.
in No. 196, at 15-16 (Jan. 1907) (emphasis omitted).

24
denied, 375 U.S. 969 (1964). After Blonder-Tongue, those
citations stop. There is not a single Kessler citation in
any published appellate decision until the Federal Circuit
interpreted Michigan law in MGA in 1987, and then not
another one for nearly 30 years until Brain Life in 2014.
That lengthy silence speaks volumes. The courts of
appeals clearly understood that Blonder-Tongue had subsumed Kessler, rendering the older decision irrelevant.
The Federal Circuit initially read Kessler the same
way. In MGA, the defendant “admit[ted] that the [prior]
litigation involved the issue of whether the [same] patent
covered the accused machines and resolved that issue
adversely to it.” 827 F.2d at 733 (emphasis added). It
opposed preclusion only because, “under Michigan law,
mutuality between parties to litigation continues to be
required.” Ibid. The Federal Circuit invoked Kessler
because it concluded that Michigan courts would follow
that decision as an exception to mutuality: “[T]he Kessler doctrine * * * in its effect may be compared to defensive collateral estoppel, to give preclusive effect to the
issue of noninfringement.” Id. at 734 (emphasis added).
It did not interpret Kessler as a brand-new species of
preclusion.
Only in Brain Life did the Federal Circuit go off the
rails. The court conceded that this Court “may have
created the Kessler Doctrine as an exception to the strict
mutuality requirement that existed at that time.” 746
F.3d at 1057. But the court nonetheless assigned Kessler
a wholly different and more expansive function. It announced that Kessler “precludes some claims that are not
otherwise barred by claim or issue preclusion” and applied the doctrine to foreclose claims in that case while
simultaneously holding both claim and issue preclusion
inapplicable. Id. at 1053-1056.

25
The Federal Circuit then doubled down in SpeedTrack.
Refusing to limit Kessler to its “original footprint,” the
court rejected the argument that Kessler merely “carved
a narrow exception to * * * mutuality principle[s].” 791
F.3d at 1325, 1328. It instead described Kessler as a
“necessary supplement to issue and claim preclusion” and
applied the doctrine even though neither claim nor issue
preclusion applied. Id. at 1328-1329 (emphasis added).
In this case too, the Federal Circuit held that Kessler
is a “separate” preclusion doctrine distinct from the “two
traditional pillars of preclusion law.” App., infra, 20a. It
rejected the argument that Kessler “is based on principles of collateral estoppel.” Id. at 21a. And it once again
applied the doctrine to circumvent fundamental limits on
claim and issue preclusion: Claim preclusion does not
apply here because PersonalWeb sought damages for infringement occurring after the prior action, see Lucky
Brand, 140 S. Ct. at 1596, and issue preclusion does not
apply because the first action did not actually decide
infringement, see Arizona, 530 U.S. at 414.
The Federal Circuit pushed the envelope further still
in this case by applying the Kessler doctrine to a voluntary dismissal that decided no issue of infringement at
all. That was a particularly stark departure from settled
law. This Court held long ago that consent judgments
have no claim-preclusive effects on suits over later conduct. See Lawlor, 349 U.S. at 324, 328 (no claim preclusion where “conduct presently complained of was all
subsequent” to prior consent judgment). Nor do they
have issue-preclusive effects. See Arizona, 530 U.S. at
414 (no issue preclusion for “consent judgments”). “[T]he
central characteristic of a consent judgment is that the
court has not actually resolved the substance of the issues
presented.” 18A Charles Wright & Arthur Miller, Fed-

26
eral Practice and Procedure § 4443 (3d ed. rev. 2020).
The Federal Circuit’s latest application of its Kessler doctrine brushes aside all those limits.
Kessler has thus metastasized from a narrow precursor to Blonder-Tongue into a freestanding, patent-specific
preclusion doctrine that bulldozes otherwise valid claims
without regard to the settled limits on claim and issue
preclusion. The Federal Circuit’s “Kessler doctrine” bears
no resemblance to its modest namesake from over a century ago. This Court should intervene to correct the Federal Circuit’s increasingly egregious misinterpretations.
3. To the extent the Court concludes that Kessler does
compel the Federal Circuit’s expansive view, the Court
should reconsider that decision. This Court does not
lightly overrule its precedents. But it has not hesitated
to do so where a case has been overtaken by intervening
developments, particularly in the field of its common-lawmaking authority.
In Blonder-Tongue itself, the Court overruled Triplett’s “judge-made doctrine of mutuality.” 402 U.S. at
320. Surveying decades of intervening law, the Court
observed that “the court-produced doctrine of mutuality
of estoppel is undergoing fundamental change in the
common-law tradition.” Id. at 327. That evolution was
“accompanied by other developments” that cast still further doubt on Triplett’s vitality. Ibid.
Similarly, in State Oil Co. v. Khan, 522 U.S. 3 (1997),
this Court unanimously overruled its holding in Albrecht
v. Herald Co., 390 U.S. 145 (1968), that maximum vertical
price fixing is a per se antitrust violation. The Court’s
later decisions had “substantially weakened” Albrecht’s
“analytical underpinnings.” State Oil, 522 U.S. at 14.
And “the general presumption that legislative changes

27
should be left to Congress ha[d] less force” given that
“Congress ‘expected the courts to give shape to the [Sherman Act’s] broad mandate by drawing on common-law
tradition.’ ” Id. at 20-21.
The same factors apply here. Kessler is a relic of a
legal regime that no longer exists. Now that BlonderTongue has eliminated the mutuality requirement, there
is no longer any justification for it. Even the Federal
Circuit admits that “the continuing force of the Kessler
Doctrine * * * may be questionable” and, at a minimum,
Kessler’s “viability under current estoppel law may be of
less value now than it was at the time it was handed
down.” Brain Life, 746 F.3d at 1058.
Meanwhile, the Federal Circuit’s version of Kessler
sticks out like a sore thumb against this Court’s modern
decisions. This Court has repeatedly chastised the Federal Circuit for creating procedural rules “unique to patent disputes.” eBay, 547 U.S. at 393-394. It has also regularly warned courts not to invent new preclusion doctrines “unmoored from the two guideposts of issue preclusion and claim preclusion.” Lucky Brand, 140 S. Ct. at
1595. Yet, according to the Federal Circuit, this Court
ignored both principles in Kessler and created a new
patent-specific preclusion doctrine that applies when traditional preclusion doctrines do not.
Kessler was a paradigmatic exercise of this Court’s
common-law-making authority: a case that cites not a
single legal authority, let alone a statute. The “general
presumption that legislative changes should be left to
Congress” is thus irrelevant. State Oil, 522 U.S. at 20.
While the best reading of Kessler is that Blonder-Tongue
has already subsumed the case, to the extent the Court
disagrees, Kessler has earned its retirement.

28
C. This Case Is an Excellent Vehicle
1. This case is an ideal vehicle. The Kessler doctrine
was clearly dispositive with respect to post-judgment infringement. The district court held that claim preclusion
did not apply, and Amazon did not appeal that ruling.
App., infra, 14a, 54a-58a. Amazon admitted in the court
of appeals that “issue preclusion does not apply here”
either. C.A. Arg. Audio 25:40. The Federal Circuit invoked Kessler precisely because the “two traditional pillars of preclusion law” would not support the judgment.
App., infra, 20a. This case thus squarely presents whether Kessler is a third, freestanding preclusion doctrine.
This case also involves a particularly extreme application of Kessler. PersonalWeb’s first suit against Amazon
did not decide any issues of infringement. It did not decide
any issues at all. PersonalWeb voluntarily dismissed the
suit—a paradigmatic disposition with no issue-preclusive
effects. See Arizona, 530 U.S. at 414. In the past, the
Federal Circuit has applied Kessler to prior judgments
that decided different infringement issues. See Brain
Life, 746 F.3d at 1055-1056 (first suit decided apparatus
claims; second suit asserted method claims); SpeedTrack,
791 F.3d at 1321-1322 (first suit decided literal infringement; second suit asserted doctrine of equivalents). This
is the first time the court has applied the doctrine to a
judgment that decided no issue of infringement at all.
2. This Court currently has before it another petition
presenting the same issue in Sowinski v. California Air
Resources Board, No. 20-1339. While the pendency of
that petition underscores the issue’s importance, this case
is the better vehicle.
For one thing, the Federal Circuit’s decision in Sowinski does not clearly rest on Kessler. The decision does
not cite Kessler. See Sowinski v. Cal. Air Res. Bd., 971

29
F.3d 1371 (Fed. Cir. 2020). Instead, the court held the
claims barred by claim preclusion. See id. at 1374-1375.
Although the opinion contains one brief quotation from
Brain Life, the court appears to have relied on that case
to support its claim preclusion ruling, not to invoke
Kessler as a separate basis for dismissal. Id. at 1376.
The decision here, by contrast, indisputably rests on the
Kessler doctrine. App., infra, 20a-26a.
Sowinski also has lurking jurisdictional issues. The
defendant, a California state agency, moved to dismiss on
Eleventh Amendment grounds. 971 F.3d at 1374. The
district court dismissed on claim preclusion grounds
without reaching the Eleventh Amendment, denying the
plaintiff in forma pauperis status because the complaint
was “frivolous.” Ibid. The Eleventh Amendment, however, is a “jurisdictional bar.” Pennhurst State Sch. &
Hosp. v. Halderman, 465 U.S. 89, 100 (1984). This Court
has not yet decided whether a federal court may reach
the merits despite a timely Eleventh Amendment claim.
Cf. Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83,
101 (1998). There is no reason to grapple with that question when PersonalWeb’s petition presents the same
Kessler question without that jurisdictional complication.
II. AT A MINIMUM, THE COURT SHOULD REJECT KESSLER’S APPLICATION TO VOLUNTARY DISMISSALS
If the Court concludes that Kessler is, in fact, a freestanding patent-specific preclusion doctrine, it should at
least reject the Federal Circuit’s latest expansion of the
doctrine to voluntary dismissals—cases where there was
no prior finding on any issue.
A. Kessler itself supports that limitation. Eldred’s
first suit ended when the court “found for Kessler on the
issue of non-infringement.” 206 U.S. at 285-286 (emphasis added); see also id. at 288 (“On the issue [of infringe-

30
ment] thus joined there was final judgment for Kessler.”).
It was that judgment of non-infringement that “settled
finally and everywhere, and so far as Eldred * * * was
concerned, that Kessler had the right to manufacture,
use and sell the electric cigar lighter.” Id. at 288. That
rationale does not apply to voluntary dismissals that decide no issue of infringement at all.
Moreover, the Court’s concern was the “harass[ment]”
that would result if a patent owner could sue customers
for infringement after a court had already found the
product non-infringing. Kessler, 206 U.S. at 289. Voluntary dismissals present no comparable threat. A party
may voluntarily dismiss a suit for many reasons—including, as here, because it discovers that “the potential
damages that could be obtained for patent infringement
d[o] not warrant the expense of trial.” C.A. App. 599-600.
Bringing a new suit against other infringers in those circumstances is not harassment.
B. The Federal Circuit’s earlier cases were consistent
with that understanding. In MGA, the court described
Kessler as applying to “a seller who has previously prevailed against the patentee because of invalidity or noninfringement of the patent.” 827 F.2d at 734 (emphasis
added). And in Brain Life, the court described Kessler
as “allowing an adjudged non-infringer to avoid repeated
harassment.” 746 F.3d at 1056 (emphasis added); see
also SpeedTrack, 791 F.3d at 1327 (“Kessler only protects
an adjudged noninfringer’s right to make and sell its
noninfringing article.” (emphasis added)).
The Federal Circuit has not required that the earlier
suit involve the same issue of infringement. In Brain
Life, the court applied Kessler where the first suit decided apparatus claims while the second suit asserted
method claims. 746 F.3d at 1055-1056. And in Speed-

31
Track, the court applied Kessler where the first suit
decided literal infringement while the second suit concerned the doctrine of equivalents. 791 F.3d at 13211322. But at least the prior judgments in those cases
decided some issue of infringement. Until this case, the
Federal Circuit had never applied Kessler where there
was no finding of non-infringement at all.
Applying Kessler to voluntary dismissals is a particularly jarring departure from traditional rules. Consent
judgments have no claim-preclusive effects on suits over
post-judgment conduct. See Lawlor, 349 U.S. at 324, 328.
Nor does issue preclusion apply: “[T]he central characteristic of a consent judgment is that the court has not
actually resolved the substance of the issues presented.”
18A Wright & Miller, supra, § 4443. Under the Federal
Circuit’s latest expansion, however, the Kessler doctrine
will apply to consent judgments as a matter of course.
C. Extending Kessler to voluntary dismissals has broad
and undesirable consequences. “The overwhelming majority of [patent] lawsuits settle or are abandoned before
trial.” Mark Lemley, Rational Ignorance at the Patent
Office, 95 Nw. U. L. Rev. 1495, 1501 (2001). Only about
15% of patent suits are “terminated through some sort of
court ruling on the merits.” Jay Kesan & Gwendolyn
Ball, How Are Patent Cases Resolved? An Empirical
Examination of the Adjudication and Settlement of
Patent Disputes, 84 Wash. U. L. Rev. 237, 271 (2006).
Applying Kessler to voluntary dismissals sweeps in an
enormous number of cases.
That expansion will discourage voluntary dismissals.
Patent owners will be less willing to compromise or walk
away from litigation if doing so may have unforeseen
consequences for future actions against other parties.
“The general policy of the law is to favor the settlement

32
of litigation, and the policy extends to the settlement of
patent infringement suits.” Asahi Glass Co. v. Pentech
Pharms., Inc., 289 F. Supp. 2d 986, 991 (N.D. Ill. 2003)
(Posner, J.). That is one reason why issue preclusion
does not apply to settlements: “[I]f preclusive effect
were given to issues not litigated, the result might serve
to discourage compromise, to decrease the likelihood that
the issues in an action would be narrowed by stipulation,
and thus to intensify litigation.” Restatement (Second) of
Judgments § 27 cmt. e (1982).
The court of appeals urged that a plaintiff that wants
to reserve its rights against third parties “can do so by
framing the dismissal agreement to preserve any such
rights that the defendant is willing to agree to.” App.,
infra, 25a-26a. It never explained why such an agreement would bind a third party that sought to assert the
Kessler doctrine. See EEOC v. Waffle House, Inc., 534
U.S. 279, 294 (2002) (“It goes without saying that a contract cannot bind a nonparty.”). Nor did it explain why a
defendant would be “willing to agree” to such terms—
particularly in a case like this, where the plaintiff just
wants to discontinue the suit upon learning that it is uneconomic. C.A. App. 599-600. This Court should not
embrace rules that needlessly clog up court dockets by
forcing plaintiffs to continue litigating suits they would
rather not pursue, solely to avoid foreclosing unknown
future actions. The Federal Circuit’s latest expansion of
Kessler has precisely that effect.
CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted.
MICHAEL A. SHERMAN
JEFFREY F. GERSH
WESLEY W. MONROE
STUBBS, ALDERTON &
MARKILES, LLP
15260 Ventura Blvd.
20th Floor
Sherman Oaks, CA 91403
(818) 444-4500

JEFFREY A. LAMKEN
Counsel of Record
ROBERT K. KRY
KENNETH E. NOTTER III
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioner
APRIL 2021

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
NO. 2019-1918
————
IN RE: PERSONALWEB TECHNOLOGIES LLC
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
PATREON, INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
DICTIONARY.COM, LLC,
Defendant-Appellee,

(1a)

2a
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
VOX MEDIA, INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
VICE MEDIA, LLC,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,

3a
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
OATH INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
BUZZFEED, INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
POPSUGAR, INC.,
Defendant-Appellee,

4a
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
ZIFF DAVIS, LLC,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
Appeal from the United States District Court
for the Northern District of California in
Nos. 5:18-cv-05599-BLF, 5:18-cv-05606-BLF,
5:18-cv-05969-BLF, 5:18-cv-05970-BLF,
5:18-cv-06044-BLF, 5:18-cv-06046-BLF,
5:18-cv-06612-BLF, 5:18-cv-07119-BLF,
5:18-md-02834-BLF, United States
District Judge Beth Labson Freeman.
————
OPINION
————
June 17, 2020
————

5a
MICHAEL AMORY SHERMAN, Stubbs Alderton & Markiles LLP, Sherman Oaks, CA, argued for plaintiffappellant. Also represented by VIVIANA H. BOERO
HEDRICK, JEFFREY F. GERSH, WESLEY WARREN MONROE, STANLEY HUGH THOMPSON, JR.; SANDEEP SETH,
SethLaw, Houston, TX.
J. DAVID HADDEN, Fenwick & West, LLP, Mountain
View, CA, argued for all defendants-appellees and for
intervenors. Defendants-appellees Vox Media, Inc., Vice
Media, LLC, Oath Inc., BuzzFeed, Inc., Dictionary.com,
LLC, Patreon, Inc., Ziff Davis, LLC, Popsugar Inc. and
intervenors Amazon.com, Inc., Amazon Web Services,
Inc. also represented by SAINA S. SHAMILOV, RAVI
RAGAVENDRA RANGANATH; TODD RICHARD GREGORIAN,
San Francisco, CA. Defendant-appellee Vice Media,
LLC also represented by BENJAMIN J. BYER, Davis
Wright Tremaine LLP, Seattle, WA; KIMBERLY HERMAN,
Sullivan & Worcester, Boston, MA; CHRISTOPHER T.
MCWHINNEY, Washington, DC. Intervenors Amazon.com,
Inc., Amazon Web Services, Inc. also represented by
JEFFREY H. DEAN, Amazon.com, Inc., Seattle, WA.
————
Before WALLACH, BRYSON, and TARANTO, Circuit
Judges.
BRYSON, Circuit Judge.
Appellant PersonalWeb Technologies LLC filed a
number of lawsuits charging dozens of customers of
Amazon.com, Inc., and Amazon Web Services, Inc. (collectively “Amazon”) with infringing several related patents. Amazon responded with a declaratory judgment
action seeking an order declaring that PersonalWeb’s
lawsuits against Amazon’s customers were barred as a
result of a prior lawsuit brought by PersonalWeb against

6a
Amazon, which was dismissed with prejudice. In the
eight cases that are now on appeal, the district court
agreed with Amazon that the consequence of the prior
dismissal was to bar PersonalWeb’s infringement actions
against Amazon’s customers. In re: PersonalWeb Techs.,
LLC, No. 5:18-md-02834-BLF, 2019 WL 1455332 (N.D.
Cal. Apr. 2, 2019). We affirm.
I
A
There are five patents at issue in this appeal: U.S. Patent Nos. 5,978,791 (“the ’791 patent”), 6,928,442 (“the ’442
patent”), 7,802,310 (“the ’310 patent”), 7,945,544 (“the
’544 patent”), and 8,099,420 (“the ’420 patent”) (collectively,
“the True Name patents”). All five patents share a largely
common specification and claim priority to the same
abandoned patent application, which was filed on April
11, 1995.
According to the specification, there was a problem
with the way prior art computer networks of the mid1990s identified data in their systems. There was “no
direct relationship between the data names” and the contents of the data item. ’442 patent, col. 2, ll. 13-14. The
same file name in two different folders could refer to different data items, or two different file names could refer
to the same data item. Id. at col. 2, ll. 15-17. Consequently,
computer networks could become clogged with duplicate
data, and the efficiency and integrity of data processing
systems could be impaired. Id. at col. 2, line 30, through
col. 3, line 43.
The inventors of the patents in suit purported to solve
this problem by devising what they referred to as “True
Names” for data items. Id. at col. 6, ll. 7-11. The True
Name system created a “substantially unique” identifier

7a
for each data item that depended only on the content of
the data itself. Id.; see also id. at col. 3, ll. 30-33. The
True Name system thus did not depend on other purportedly less reliable means of identifying data items,
such as user-provided file names.
The common specification of the patents in suit teaches
that file names in the True Name system can be created
using a “hash function.” Id. at col. 12, ll. 57-63. A hash
function is a mathematical function that reduces a data
block of arbitrary size and converts it into a relatively
small, fixed-length sequence, “such that the True Name
of the data block is virtually guaranteed to represent the
data block B and only data block B.” Id.
In the True Name system, a large file is first partitioned into smaller segments. The hash function is then
applied to each segment. Id. at col. 14, ll. 16-35. The resulting values are strung together, and a hash function is
applied to the entire string of values, to compute the True
Name of the large file. Id.
The specification summarizes a variety of applications
for the True Name invention, including using True
Names (1) to avoid storing multiple copies of a file, when
those copies have been assigned different names; (2) to
avoid copying data from a remote location when a local
copy is already available; and (3) to verify that data retrieved from a remote location is the data that was intended to be retrieved. Id. at col. 3, ll. 49-55; see also id.
at col. 4, ll. 25-27.
B
In December 2011, PersonalWeb sued Amazon and
one of Amazon’s customers, Dropbox, Inc., for patent infringement in the United States District Court for the
Eastern District of Texas. In the complaint, Personal-

8a
Web alleged that “Amazon has infringed and continues to
infringe [the True Name patents, among others] by its
manufacture, use, sale, importation, and/or offer for sale
of the following products and services within the PersonalWeb Patent Field: Amazon Simple Storage Service (S3)[.]”
Amazon S3 provides web-based storage to certain customers, typically companies with websites. The customers
can use S3 to store static content, such as images, for
their websites. Information that is stored in the S3 system is stored in the form of “objects” that are organized
into customer-created containers called “buckets.” Once
an object is stored in S3, it can be made available over the
entire Internet.
To use an example featured in Amazon’s brief, if a company creates a webpage containing a picture of a puppy,
that picture can be stored in S3. When a user visits the
company’s website, the user’s web browser is directed to
download the puppy picture from S3 in order to display
the website. The way the user’s web browser asks to
download the puppy picture from S3 is through a Hyper
Text Transfer Protocol (“HTTP”) “GET” request.1
S3 automatically generates an “ETag” for every object
stored in S3. ETags provide useful identifying information about an object. For most objects, S3 creates an
ETag by running a particular hash function on the object’s content. If the object’s content changes, the ETag
changes. S3 uses ETags in several of its operations
where it is helpful to know that identifying information.
For example, when the user downloads the puppy picture described above from S3, the user’s computer might
1

HTTP is a standard communication protocol that web browsers and
web servers follow in order to communicate with each other on the
Internet.

9a
store that picture in the computer’s temporary memory
or cache. If the user requests the same file again, S3
compares the ETag for the file stored in the user’s cache
to the file stored on S3. If the ETags are identical, S3 responds with a status code indicating that the user’s computer already has a copy of the picture, so there is no
need to download the picture again. If S3 does not contain a file with the same ETag, however, that indicates
that the contents of the file have been changed. In that
event, S3 will send the user’s web browser the file containing the updated version of the picture. The parties
refer to the request for a file in that scenario as a “conditional get request” because the operation will be performed only if a certain condition is met. PersonalWeb
also refers to such conditional get requests as “cache control.” Conditional get requests help avoid unnecessary
downloads, thereby saving time and network bandwidth.
S3 also uses ETags when customers, such as companies
with websites, upload objects to S3. One method of uploading that S3 supports is what Amazon calls the Multipart Upload Application Program Interface. The multipart upload function allows users to upload an object
larger than five gigabytes as a series of parts. Once all
the parts have been uploaded, S3 can assemble them into
a single object for storage. S3 generates an ETag for
each uploaded part as well as for the completed object.
The ETags can be used to verify that none of the parts
were corrupted during the upload.
In its infringement contentions in the Texas case, PersonalWeb referenced S3’s use of both multipart upload
and conditional get requests. The contentions are extensive, but they consist mainly of similar and sometimes
identical material repeated numerous times. A commonly
appearing feature in the infringement contentions is a

10a
reference to S3’s use of ETags to compare the identity of
different objects in order to determine whether or not to
perform certain operations. See, e.g., J.A. 1651 (“Amazon
S3 causes the content-dependent name of the particular
data item (the ‘ETag’) to be compared to a plurality of
values (other ‘ETags’) . . . . When doing GET, HEAD,
PUT/COPY operation with certain conditional parameters,
the existence of the particular item at a particular location is determined with Etag.”); J.A. 1652 (“GetIfMatchEtags uses the received Etag attached by the user request and compares it with the digest contained in the
node for that specific object to determine whether or not
access to the object is allowed based upon the match or
non-match of hashes.”); J.A. 1653 (“Upon receiving the
parts during multipart upload, the user’s list of etags is
used to compare with the etags that are generated for
the parts to check for the correct parts before combining
the parts.”).
Consistent with its infringement contentions in the
Texas case, PersonalWeb represented in a discovery motion in that case that S3’s use of ETags to perform conditional operations infringed the True Name patents:
The accused products in this case are Amazon’s
Simple Storage Service (“S3”) and Amazon Web
Services, LLC’s Storage Gateway. S3 is a cloud
storage service, and the accused functionalities of
S3 include but are not limited to its “multipart upload” feature and “conditional operations.” . . . In
response to receiving each uploaded part of a file,
S3 creates an ETag for the part uploaded, which is
a MD5 hash of the contents of the part. PersonalWeb maintains that S3’s use of these hash values infringes the patents-in-suit.

11a
A customer who stores files using S3 is able to
send a variety of different requests to Amazon, e.g.,
to get a file, to copy a file, or to put a file into storage.
The customer can optionally require that the operation succeed or fail based on a comparison of a userprovided ETag against the ETag S3 has stored for
the file in question, referred to as “conditional operations.” For example, in S3’s “conditional copy”
feature, the two options are “If-Match” and “IfNone-Match”—the former allowing a successful copy
operation only if the ETags match, and the latter
only if the ETags do not match. If the match succeeds, then the copy operation is allowed to be performed; otherwise, S3 returns an error. PersonalWeb maintains that S3’s conditional operations infringe the patents-in-suit.
J.A. 2045-46 (emphasis added).

After the district court issued its claim construction
order in the Texas case, PersonalWeb stipulated to the
dismissal of all its claims against Amazon with prejudice.2
Pursuant to that stipulation, the district court in June
2014 issued an order dismissing all claims against Amazon
with prejudice; the court subsequently entered final judgment against PersonalWeb.
C
Beginning in January 2018, PersonalWeb filed dozens
of new lawsuits in various districts against website operators, many of which were Amazon’s customers. PersonalWeb alleged that by using S3, Amazon’s customers had
infringed the True Name patents.
2

PersonalWeb had previously dismissed its claims against Dropbox,
Inc., without prejudice. Dropbox is not a party to any of the cases
before this court.

12a
Amazon intervened in the actions against its customers
and undertook the defense of the customer-defendants in
all the cases now before this court. In addition, Amazon
filed a declaratory judgment complaint against PersonalWeb, seeking an order barring PersonalWeb’s infringement actions against Amazon and its customers based on
the prior action against Amazon in the Eastern District
of Texas. The Judicial Panel on Multidistrict Litigation
consolidated the customer cases and the Amazon declaratory judgment action in a multidistrict litigation proceeding, and assigned the consolidated cases to the United
States District Court for the Northern District of California for pretrial proceedings. That court decided to
proceed with the Amazon declaratory judgment action
first. Based on input from the parties, the court selected
one representative customer case (the case against Twitch
Interactive, Inc.) to proceed along with the Amazon declaratory judgment action. The court stayed all the other
customer cases. Because PersonalWeb represented that
it would not be able to proceed in the other customer cases
if it lost its case against Twitch, the district court relied
on PersonalWeb’s pleadings against Twitch as being representative of PersonalWeb’s pleadings in the other customer cases.
In its counterclaim against Amazon in the declaratory
judgment action, PersonalWeb alleged that S3 infringed
the True Name patents when S3 used ETags to perform
conditional operations. In particular, PersonalWeb accused S3’s use of ETags to determine whether a customer’s web browser should reuse its cached data or
download a new, updated version of the data. According
to PersonalWeb, “Amazon thereby reduced the bandwidth and computation required by its S3 web host servers
(acting as origin servers for its web server customers)

13a
and any intermediate cache servers . . . .” J.A. 2929.
PersonalWeb made similar allegations in its complaints
against Amazon’s customers.
PersonalWeb’s infringement contentions tracked the
complaints against Amazon’s customers. For example,
PersonalWeb alleged that “[t]he distribution of hosted
webpage file content (content) to other computers such
as outside intermediate cache servers and computers
running web browsers . . . is controlled from an S3 website file host server (a first computer). This is done in
response to a conditional HTTP GET request (a request)
obtained by an S3 website file host server (a first device
in the system) from another computer (a second device in
the system) . . . .” J.A. 381. The conditional HTTP GET
requests included ETags that, according to PersonalWeb, corresponded to the claimed “content-dependent
name.”
D
Amazon moved for summary judgment in its declaratory judgment action and partial summary judgment
in PersonalWeb’s infringement action against Twitch.
Amazon argued that, in light of the with-prejudice dismissal of PersonalWeb’s action against Amazon in the
Texas case, PersonalWeb was barred from suing Amazon
or its customers for infringement based on Amazon’s S3
system.
The district court granted the motion in part. It held
that claim preclusion barred PersonalWeb’s claims regarding acts of infringement occurring prior to the final
judgment in the Texas action, and that the Kessler doctrine, first adopted by the Supreme Court in Kessler v.
Eldred, 206 U.S. 285 (1907), barred PersonalWeb’s claims
of infringement relating to S3 after the final judgment in
the Texas action.

14a
With respect to claim preclusion, the district court
held that all the requirements of that doctrine were met.
First, the court determined that the with-prejudice dismissal in the Texas action was a final judgment on the
merits, and that PersonalWeb did not reserve any rights
in the stipulated dismissal in that case. In re PersonalWeb, 2019 WL 1455332, at *6-7.
Second, the court concluded that Amazon’s customers
were in privity with Amazon. As the court explained,
Amazon and its customers share the same interest in the
unfettered use of Amazon’s web services; Amazon adequately represented that interest in the Texas action; and
Amazon agreed to indemnify its customers and assumed
the defense of its customers against PersonalWeb’s infringement charges. Id. at *7-9.
Third, the court ruled that the causes of action asserted
in the Texas case and in the customer cases were the
same. The court rejected PersonalWeb’s contention that
the claims against Amazon in the Texas case were limited
to the multipart upload features of S3, and did not extend
to S3 generally. Id. at *10-13. The court concluded that
“both the complaint and the infringement contentions in
the Texas Action indisputably support the Court’s conclusion that the Texas Action asserted infringement
against all of S3 and was not limited only to [the multipart upload feature].” Id. at *12. Different features of
the same product, the court ruled, do not give rise to separate causes of action. Id. at *13.
Finally, the court rejected Amazon’s argument that
claim preclusion applies through the expiration of the patents, and instead concluded that claim preclusion applies
only up to the date of the final judgment in the Texas
action. Id. at *13-14.

15a
With respect to the Kessler doctrine, the district court
held that the judgment in the Texas case gave rise to a
limited trade right to continue producing, using, and selling
the product at issue in that case “even when the acts of
infringement occurred post-final judgment and even when
it was third parties who allegedly engaged in those acts
of infringement.” Id. at *15 (internal quotation marks
and citation omitted). The court rejected PersonalWeb’s
argument that the Kessler doctrine is “rooted in . . . issue
preclusion” and does not apply because the judgment in
the Texas case did not specifically adjudicate the issue of
non-infringement. Id. at *14-16.
The district court then determined that its summary
judgment ruling had the effect of disposing of the eight
customer cases in which PersonalWeb alleged infringement based solely on the customer’s use of Amazon’s S3
system. Accordingly, the court dismissed those eight
cases. PersonalWeb appeals from the judgment in those
cases.
II
PersonalWeb raises two primary challenges to the district court’s decision. First, PersonalWeb contends that
claim preclusion is inapplicable to the actions against
Amazon’s customers because the Texas case involved a
different feature of Amazon’s S3 system, and therefore a
different cause of action, than the feature that is at issue
in the customer cases. Second, PersonalWeb contends
that the with-prejudice dismissal of the action against
Amazon in the Texas case did not constitute an adjudication of non-infringement and is therefore insufficient to
trigger the Kessler doctrine.3 We reject both challenges.
3

In the trial court, PersonalWeb also contended that claim preclusion applies only up to the date of the operative complaint in the prior

16a
A
Under the doctrine of claim preclusion, ‘‘a judgment
on the merits in a prior suit bars a second suit involving
the same parties or their privies based on the same cause
of action.” Parklane Hosiery Co. v. Shore, 439 U.S. 322,
326 n.5 (1979). Claim preclusion bars both those claims
that were brought as well as those that could have been
brought in the earlier lawsuit. Lucky Brand Dungarees,
Inc. v. Marcel Fashions Grp., Inc., 140 S. Ct. 1589, 159495 (2020); Brain Life, LLC v. Elekta Inc., 746 F.3d 1045,
1053 (Fed. Cir. 2014); Owens v. Kaiser Found. Health
Plan, Inc., 244 F.3d 708, 713 (9th Cir. 2001).
To the extent that a case turns on general principles of
claim preclusion, as opposed to a rule of law having special application to patent cases, this court applies the law
of the regional circuit in which the district court sits—
here the Ninth Circuit. Acumed LLC v. Stryker Corp.,
525 F.3d 1319, 1323 (Fed. Cir. 2008). However, the question whether two causes of action for patent infringement
are the same is an issue peculiar to patent law, and we
therefore analyze that issue under Federal Circuit law. Id.
For purposes of claim preclusion, PersonalWeb does
not dispute the district court’s ruling that the withprejudice judgment in the Texas case is a final judgment
on the merits. PersonalWeb also does not challenge the
district court’s determination that Amazon and its customers are in privity, and thus are regarded as the same
parties for claim preclusion purposes. The sole basis for
PersonalWeb’s challenge to the district court’s finding on
action. PersonalWeb has not challenged the trial court’s ruling that
“claim preclusion bars PersonalWeb’s claims through the date of the
final judgment in the Texas Action.” In re PersonalWeb, 2019 WL
1455332, at *13. Because PersonalWeb has not appealed that aspect
of the trial court’s decision, we do not address it.

17a
claim preclusion is its contention that the Texas action
and the customer suits involved different causes of action.
In determining whether causes of action for patent infringement are the same, we are guided by the Restatement (Second) of Judgments (1982). See SimpleAir, Inc.
v. Google LLC, 884 F.3d 1160, 1165 (Fed. Cir. 2018); Acumed, 525 F.3d at 1323-24. Following the approach taken
in the Restatement, we define a cause of action by the
transactional facts from which it arises, and we consider
the extent of the factual overlap between the two alleged
claims at issue. See Gillig v. Nike, Inc., 602 F.3d 1354,
1363 (Fed. Cir. 2010) (“Claims arising from the same nucleus of operative facts are barred by res judicata.”); Senju
Pharm. Co. v. Apotex Inc., 746 F.3d 1344, 1349 (Fed. Cir.
2014); Acumed, 525 F.3d at 1323-24 (citing Restatement
§ 24); Foster v. Hallco Mfg. Co., 947 F.2d 469, 478 (Fed.
Cir. 1991) (noting that a “claim,” i.e., a cause of action, “is
used in the sense of the facts giving rise to the suit”).
In patent cases, one of the areas of factual overlap we
consider “is the overlap of the product or process accused
in the instant action with the product or process accused
in the prior action.” Senju, 746 F.3d at 1349. Claim preclusion does not apply unless the products or processes
are essentially the same. Id. (citing Acumed, 525 F.3d at
1324); SimpleAir, 884 F.3d at 1167. “Accused devices are
‘essentially the same’ where the differences between
them are merely ‘colorable’ or ‘unrelated to the limitations in the claim of the patent.’ ” Acumed, 525 F.3d at
1324 (quoting Foster, 947 F.2d at 480). We also consider
whether the same patents are involved in both suits.
Senju, 746 F.3d at 1349.
Importantly, under well-settled principles of claim
preclusion, different arguments or assertions in support
of liability do not all constitute separate claims. See Fos-

18a
ter, 947 F.2d at 478. Regardless of the number of substantive theories available to a party and regardless of
the differences in the evidence needed to support each of
those theories, a party may not split a single claim into
separate grounds of recovery and raise those separate
grounds in successive lawsuits. See Mars Inc. v. Nippon
Conlux Kabushiki-Kaisha, 58 F.3d 616, 619 (Fed. Cir.
1995); Restatement § 24 cmt. a. Rather, the party must
raise in a single lawsuit all the grounds of recovery arising
from a particular transaction that it wishes to pursue.
Mars, 58 F.3d at 619.
PersonalWeb asserts that in the Texas case it accused
only the multipart upload functionality of Amazon’s S3
system. In the customer cases before the California
court, PersonalWeb contends it has accused the “cache
control” functionality, an entirely different feature of
Amazon’s S3 system. According to PersonalWeb, these
different features constitute different products or processes for purposes of claim preclusion analysis.4 PersonalWeb thus contends that the accused activity in the
customer cases is not essentially the same as the activity
that was accused in the Texas case, and that claim preclusion is therefore inapplicable in the customer cases.
Although PersonalWeb contends that the accused feature in the customer cases is different from the accused
feature in the Texas case, PersonalWeb concedes that
“the conditional GET commands” that are at issue in the
customer cases were identified in the infringement contentions in the Texas case. Appellant’s Br. at 37. None4

PersonalWeb also contends that the customer cases are different
because they include a new product, Amazon CloudFront. None of
the customer cases before this court, however, involve accusations
against CloudFront, so that argument is irrelevant to the resolution
of this appeal.

19a
theless, PersonalWeb contends that there were only a
“handful” of references to those conditional operations in
the Texas infringement contentions, not enough to constitute a substantial factual overlap. Moreover, PersonalWeb contends that it referred to that infringement theory
in the Texas case only by way of “analogy.”
Contrary to PersonalWeb’s assertions, PersonalWeb
did not limit its infringement contentions in the Texas
case to S3’s multipart upload functionality. As PersonalWeb told the trial court in the Texas case, “the accused
functionalities of S3 include but are not limited to its
‘multipart upload’ feature and ‘conditional operations.’ ”
PersonalWeb’s assertion that it included conditional get
requests in the Texas infringement contentions as analogies, not accusations, is thus at odds with the representations PersonalWeb made in the Texas case. Because
PersonalWeb accused the use of “conditional operations”
in the Texas case, PersonalWeb’s arguments regarding the
purported differences between the multipart upload and
the “cache control” functionalities of S3 are irrelevant.
In any event, regardless of the breadth of the specific
infringement theories PersonalWeb pursued in the Texas
case, it is clear that the complaints in the customer cases
and the complaint in the Texas case relate to the same set
of transactions. In the Texas case, PersonalWeb alleged
that it had been injured by acts of infringement consisting
of the manufacture, use, sale, importation, and/or offer
for sale of the Amazon S3 product. Every alleged act of
infringement in the eight customer cases before us is likewise based on the use of the same Amazon S3 product.
At most, PersonalWeb has shown that it emphasized
different facts in support of a different theory of infringement in the prior case. But that is not enough to avoid
claim preclusion. See Restatement § 24 cmt. c (“That a

20a
number of different legal theories casting liability on an
actor may apply to a given episode does not create multiple
transactions and hence multiple claims. This remains true
although the several legal theories depend on different
shadings of the facts, or would emphasize different elements of the facts . . . .”). We therefore uphold the district court’s ruling that claim preclusion principles bar
PersonalWeb from pursuing infringement claims in the
eight customer cases for actions predating the judgment
in the Texas case.
B
In addition to the two traditional pillars of preclusion
law—claim and issue preclusion—there is a separate and
less frequently invoked doctrine that derives from the
Supreme Court’s decision in Kessler v. Eldred. We have
generally held that claim preclusion cannot apply to acts
of alleged infringement that occur after the final judgment in the earlier suit. See Brain Life, 746 F.3d at
1054; see also Dow Chem. Co. v. Nova Chems. Corp.
(Canada), 803 F.3d 620, 626 (Fed. Cir. 2015) (“It is wellestablished that, as to claims for continuing conduct after
the complaint is filed, each period constitutes a separate
claim.” (citations omitted)). Likewise, if the requirements of issue preclusion are not satisfied, relief under
that doctrine will not be available to protect post-judgment
activity. Brain Life, 746 F.3d at 1056. The Kessler doctrine, however, “fills the gap” left by claim and issue preclusion, by “allowing an adjudged noninfringer to avoid
repeated harassment for continuing its business as usual
post-final judgment in a patent action where circumstances justify that result.” Id.
PersonalWeb contends that the Kessler doctrine does
not apply in this case because Amazon is not an “adjudged non-infringer.” In particular, PersonalWeb con-

21a
tends that the Kessler doctrine is based on principles of
collateral estoppel, and that the doctrine therefore cannot be invoked unless the issue of infringement or invalidity was “actually litigated” in the prior case. PersonalWeb contends that “no issues” were actually litigated in
the Texas case because PersonalWeb dismissed its claims
before there was any adjudication.
We have previously addressed whether the Kessler
doctrine precludes relitigation only of issues that were
actually litigated in a prior action, albeit in slightly different contexts. In Brain Life, we explained that the
Kessler doctrine barred all claims that were brought or
“could have been brought” in the prior action. Brain
Life, 746 F.3d at 1058-59; see also 18 Charles A. Wright
et al., Federal Practice & Procedure § 4409 & n.34 (3d ed.
2020 update) (characterizing Brain Life as utilizing the
Kessler doctrine as a “substitute for claim preclusion” to
bar claims against “conduct that the parties reasonably
should expect to continue without change”). Similarly, in
SpeedTrack, Inc. v. Office Depot, Inc., we explained that
the Kessler doctrine is a necessary supplement to
issue and claim preclusion: without it, a patent owner
could sue a manufacturer for literal infringement
and, if unsuccessful, file suit against the manufacturer’s customers under . . . any [patent] claim or
theory not actually litigated against the manufacturer as long as it challenged only those acts of infringement that post-dated the judgment in the
first action. That result would authorize the type of
harassment the Supreme Court sought to prevent
in Kessler when it recognized that follow-on suits
against customers could destroy the manufacturer’s
judgment right.
791 F.3d 1317, 1328 (Fed. Cir. 2015).

22a
Likewise, in SimpleAir we said that the Kessler doctrine serves to fill the “temporal gap” left by claim preclusion, even if that gap is not filled by issue preclusion.
884 F.3d at 1170. As Brain Life, SpeedTrack, and SimpleAir illustrate, we have treated the Kessler doctrine as a
close relative to claim preclusion, without its temporal
limitation, rather than as an early version of non-mutual
collateral estoppel, as PersonalWeb characterizes it.
None of the other cases PersonalWeb cites requires
that issues of noninfringement or invalidity be actually
litigated before the Kessler doctrine can be invoked. In
MGA, Inc. v. General Motors Corp., we said that “in its
effect,” the Kessler doctrine may be compared to defensive collateral estoppel. 827 F.2d 729, 734 (Fed. Cir.
1987). PersonalWeb relies on that statement in an effort
to confine the Kessler doctrine to instances in which collateral estoppel would apply. But PersonalWeb’s reliance
on that statement from MGA is misplaced. The question
presented in MGA was whether Michigan state courts
would have applied the Kessler doctrine. Id. at 733. We
concluded that they would do so because the Kessler doctrine was sufficiently similar to the collateral estoppel
law applied by Michigan state courts at the time. Id. at
734 (“[W]e discern from a review of the law of the state of
Michigan, that its courts would apply the Kessler doctrine, which in its effect may be compared to defensive
collateral estoppel[.]”). As our subsequent decisions interpreting MGA demonstrate, however, nothing we said
in MGA limited Kessler to requiring that the issue of
noninfringement or invalidity be “actually litigated,” as
PersonalWeb contends. See Brain Life, 746 F.3d at
1058-59; SpeedTrack, 791 F.3d at 1328.
Nor does Mentor Graphics Corp. v. EVE-USA, Inc.,
851 F.3d 1275 (Fed. Cir. 2017), impose such a require-

23a
ment. In that case, Mentor sued EVE for patent infringement. The parties subsequently settled the case,
with EVE taking a license to the patents. Following the
licensing agreement and settlement, the trial court dismissed Mentor’s claims with prejudice. Id. at 1297-98.
Later, however, the licensing agreement was terminated.
Id. at 1298. When Mentor sought to bring a second infringement action, EVE argued that the Kessler doctrine
barred the lawsuit. We disagreed and held that the Kessler
doctrine did not bar the second lawsuit against EVE over
actions that took place after the termination of the license.
Although the first suit was dismissed with prejudice, we
noted that EVE was a willing licensee, not an adjudicated
non-infringer. Id. at 1301. Under those circumstances,
we held that Kessler did not permit EVE to infringe the
patents with impunity after the license was no longer in
effect. Id.
The with-prejudice dismissal of PersonalWeb’s action
against Amazon in the Texas case is quite different from
the licensing agreement that ended the first action in the
Mentor case. The dismissal in Mentor was contingent on
the license; when the license was terminated, the contingency disappeared, and Mentor was free to re-initiate its
infringement action. In this case, by contrast, there was
no contingency attached to the with-prejudice dismissal
to which PersonalWeb stipulated.5 PersonalWeb aban5

PersonalWeb points to a provision in the stipulation and order of
dismissal in the Texas case providing that Amazon retains “the right
to challenge validity, infringement, and/or enforceability of the patents-in-suit via defense or otherwise, in any future suit or proceeding”
and suggests that the language in question somehow limits the preclusive effect of the dismissal. Appellant’s Reply Br. at 10 (quoting
J.A. 335). That is plainly not so. The proviso protects Amazon, not
PersonalWeb, and therefore does not in any way qualify the effect of
the with-prejudice dismissal of PersonalWeb’s claims in the Texas case.

24a
doned its claims against Amazon without reservation, explicit or implicit. The judgment in that case therefore
stands as an adjudication that Amazon was not liable for
the acts of infringement alleged by PersonalWeb.
The policy that drove the Supreme Court’s decision in
Kessler would be ill-served by adopting the rule proposed
by PersonalWeb. The Court in Kessler recognized that
even if a manufacturer of goods were to prevail in a patent
infringement suit, the manufacturer could be deprived of
the benefits of its victory if the patentee were free to sue
the manufacturer’s customers. The Court asked rhetorically whether, after Kessler had earned, “by virtue of the
judgment, the right to sell his wares freely, without hindrance from Eldred [the patentee], must Kessler stand
by and see that right violated . . . ?” Kessler, 206 U.S. at
289. To allow follow-up suits by the patentee against
Kessler’s customers, the Court explained, “will be practically to destroy Kessler’s judgment right.” Id. at 289-90.
Accordingly, the Court concluded that, setting aside “any
rights which Kessler’s customers have or may have, it is
Kessler’s right that those customers should, in respect of
the articles before the court in the previous judgment, be
let alone by Eldred, and it is Eldred’s duty to let them
alone.” Id. at 289. As the Court put the matter a few
years after Kessler, a party that obtains a final adjudication in its favor obtains “the right to have that which it
lawfully produces freely bought and sold without restraint or interference.” Rubber Tire Wheel Co. v. Goodyear Tire & Rubber Co., 232 U.S. 413, 418 (1914); see also
SpeedTrack, 791 F.3d at 1323.
Based on the Supreme Court’s analysis in Kessler and
Rubber Tire Wheel, we have characterized the Kessler
doctrine as granting a “limited trade right” that attaches
to the product itself. SpeedTrack, 791 F.3d at 1323 (quoting

25a
MGA, 827 F.2d at 734-35). The scope of that right is not
limited to cases involving a finding of non-infringement
that was necessary to the resolution of an earlier lawsuit,
but extends to protect any products as to which the manufacturer established a right not to be sued for infringement. For that reason, the judgment in the Texas case,
pursuant to a with-prejudice dismissal, protected Amazon’s S3 product from subsequent infringement challenges,
even when those challenges were directed at Amazon’s
customers rather than at Amazon itself.
Under PersonalWeb’s narrower construction of the
Kessler doctrine, a final, adverse disposition of a patentee’s
claims against the manufacturer of a particular product
would not give the manufacturer protection from infringement actions against its customers for the use of the same
product, unless the adverse decision was accompanied by
a specific, contested adjudication of non-infringement.
Such a proposition would leave the patentee free to engage in the same type of harassment that the Supreme
Court sought to prevent in Kessler, a result that would be
inconsistent both with Kessler itself and with this court’s
cases interpreting Kessler. See Kessler, 206 U.S. at 28990; Speed-Track, 791 F.3d at 1328-29; Brain Life, 746
F.3d at 1056, 1058-59.
We do not agree with PersonalWeb’s contention that
applying Kessler to voluntary dismissals with prejudice
would contravene the public interest in the settlement of
patent litigation. See Foster, 947 F.2d at 477 (“[T]he
Federal Circuit has repeatedly expressed the view that
there is a strong public interest in settlement of patent
litigation.”). Contrary to PersonalWeb’s assertions, the
rule we apply here will not interfere with the ability of
parties to resolve patent disputes. To the extent that a
plaintiff wishes to settle an infringement action while

26a
preserving its rights to sue the same or other parties in
the future, it can do so by framing the dismissal agreement to preserve any such rights that the defendant is
willing to agree to. Settling parties will remain free to
limit the preclusive effect of a dismissal; they simply have
to fashion their agreement in a way that makes clear any
limitations to which they wish to agree as to the downstream effect of the dismissal. See, e.g., Hallco Mfg. Co. v.
Foster, 256 F.3d 1290, 1295 (Fed. Cir. 2001); Pactiv Corp.
v. Dow Chem. Co., 449 F.3d 1227, 1231 (Fed. Cir. 2006).
We therefore reject PersonalWeb’s contention that
the issue of non-infringement must be “actually litigated”
in order to invoke the Kessler doctrine. PersonalWeb’s
stipulated dismissal with prejudice in the Texas case operated as an adjudication on the merits for claim preclusion purposes. Levi Strauss & Co. v. Abercrombie &
Fitch Trading Co., 719 F.3d 1367, 1372-73 (Fed. Cir.
2013) (citing 18A Charles A. Wright et al., Federal Practice and Procedure § 4435 (2d ed. 2002)). That is, the
with-prejudice dismissal resolved the dispute about liability for the alleged patent infringement that gave rise
to the Texas action. Thus, the dismissal operated as an
adjudication of non-liability for infringement for purposes
of invoking the Kessler doctrine. Under that doctrine,
the stipulated dismissal with prejudice conferred upon
Amazon a limited trade right to continue producing, using,
and selling Amazon S3 without further harassment from
PersonalWeb, either directly or through suits against
Amazon’s customers for using that product.
AFFIRMED

27a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
————
IN RE: PERSONALWEB TECHNOLOGIES LLC, ET AL.,
PATENT LITIGATION
————
NO. 18-MD-02834-BLF
————
ORDER GRANTING IN PART
AND DENYING IN PART AMAZON’S
MOTION FOR SUMMARY JUDGMENT
[RE: ECF 315]
————
March 13, 2019
————
BETH LABSON FREEMAN, United States District Judge.
PersonalWeb Technologies LLC and Level 3 Communications, LLC (collectively, “PersonalWeb”) allege patent infringement by Amazon.com, Inc. and Amazon Web
Services, Inc. (collectively, “Amazon”), and separately by
dozens of customers of Amazon, related to the customers’
use of Amazon’s S3 in connection with downloading files
from S3. However, PersonalWeb previously sued Amazon
in the Eastern District of Texas (“the Texas Action”) for
infringement of the same patents by the same product.
Amazon now seeks summary judgment under claim
preclusion and the related Kessler doctrine, arguing that

28a
PersonalWeb’s current lawsuits are barred by the prior
action. PersonalWeb counters that claim preclusion does
not apply because the instant litigation involves a different
feature of S3 than what was accused in the Texas Action.
PersonalWeb further argues that the instant litigation
does not involve the same parties or their privies and that
the previous litigation did not end in a final judgment on
the merits.
The Court has considered Amazon’s motion for summary judgment of Amazon’s declaratory judgment claims
and defenses under the claim preclusion and Kessler doctrines, ECF No. 315 (“Mot.”), PersonalWeb’s opposition,
ECF No. 334 (“Opp.”), Amazon’s reply, ECF No. 350
(“Reply”), and PersonalWeb’s sur-reply, ECF No. 354-1
(“Sur-reply”).
For the reasons discussed below, Amazon’s motion for
summary judgment is GRANTED IN PART and DENIED
IN PART.
I. BACKGROUND
A. Procedural Background
Beginning in January 2018, PersonalWeb filed numerous lawsuits against Amazon’s customers alleging infringement related to their use of Amazon S3. See, e.g.,
Case No. 18-cv-00149-BLF, ECF No. 1 ¶ 56 (“Defendant
has utilized . . . both hardware and software hosted on
the Amazon S3 hosting system.”). On February 5, 2018,
Amazon filed a complaint for declaratory judgment against
PersonalWeb, seeking to preclude PersonalWeb’s infringement actions against Amazon’s customers. ECF No. 18cv-767-BLF (“Amazon DJ Action”). On February 27,
2018, PersonalWeb filed a motion for transfer and consolidation of pretrial proceedings before the Judicial Panel
on Multidistrict Litigation (JPML). MDL No. 2834, Dkt.
No. 1. On June 7, 2018, the JPML transferred and as-

29a
signed to this Court all then-existing cases comprising
this MDL. ECF No. 1. Following consolidation of the
MDL, additional cases were related or transferred to this
Court. See ECF Nos. 23, 42, 44, 158, 160, 311.
On September 26, 2018, this Court ordered that it
would proceed with the Amazon DJ Action first. ECF
No. 157. At that time, the Court stayed the proceedings
in the “customer cases” (any case comprising this MDL
other than the Amazon DJ Action). Id. On October 3
and 4, 2018, PersonalWeb filed amended complaints in
the customer cases and an amended counterclaim in the
Amazon DJ Action. ECF Nos. 175-257.
During the November 2, 2018 Case Management Conference, the Court raised the concern that a verdict against
Amazon in the Amazon DJ Action may leave unresolved
issues as to the liability of the other defendants in the
customer cases. ECF No. 300 at 4. After considering the
parties’ oral and written statements, the Court designated
PersonalWeb v. Twitch, 18-cv-05619-BLF as a representative customer case. Order Re Representative Customer
Case, ECF No. 313. PersonalWeb represented to the
Court that PersonalWeb would not be able to proceed
against the defendants in the other customer cases if it
lost against Twitch. Nov. 2, 2018 Case Mgmt. Conf.,
ECF No. 300 at 6. The Court ordered the stay lifted as
to Twitch and ordered that Twitch shall participate in all
proceedings. Order Re Representative Customer Case,
ECF No. 313 at 3. Accordingly, for purposes of discussing
Amazon’s motion for summary judgment, the Court relies
on PersonalWeb’s pleadings against Twitch as representative of PersonalWeb’s pleadings in the customer cases.
ECF No. 198 (“Twitch Compl.”). The Court also refers
to the operative complaint in the Amazon DJ Action. See
18-cv-767-BLF, ECF No. 36 (“DJ Compl.”).

30a
B. Factual Background Regarding the Technology
1. Patents-In-Suit
In the earliest complaints filed in the customer cases,
PersonalWeb alleged infringement of U.S. Patent Nos.
5,978,791 (the “ ’791 patent”), 6,928,442 (the “ ’442 patent”),
7,802,310 (the “ ’310 patent”), 7,945,544 (the “ ’544 patent”),
and 8,099,420 (the “ ’420 patent”) (collectively, “patentsin-suit”).1 See, e.g., Case No. 18-cv-00149-BLF, ECF No.
1 ¶ 1. All five patents share a specification and each
claims priority to a patent filed on April 11, 1995. All of
the patents-in-suit have expired, and PersonalWeb’s allegations are directed to the time period prior to their expiration. Twitch Compl. ¶ 18. PersonalWeb has dropped
the ’791 patent from the operative complaints in the customer cases and its counterclaim against Amazon; however, Amazon’s FAC in the DJ Action still includes the
’791 patent. DJ. Compl. ¶¶ 49-56.
In its complaint, PersonalWeb represents that the patents-in-suit address the problem of how to efficiently
name and identify files on a computer network. Twitch
Compl. ¶ 11. The patent specification describes the alleged problem that the patents address: “[t]he same [file]
name in two different [folders] may refer to different data
items, and two different [file] names in the same [folder]
may refer to the same data item.” ’442 Patent at 2:15-17
(available at ECF No. 315-3). PersonalWeb’s complaint
explains that the patents-in-suit involve using a cryptographic hash function to produce a content-based “True
Name” identifier for a file, which “ensure[s] that identical
file names refer[ ] to the same data, and conversely, that
1

PersonalWeb does not allege infringement of the ’544 patent in its
counterclaim against Amazon. ECF No. 257. However, Amazon includes the ’544 patent in its complaint in the DJ Action. DJ Compl.
at 18.

31a
different file names refer[ ] to different data.” Twitch
Compl. ¶¶ 13, 15-17. For a small file, “[a] True Name is
computed using a [hash] function . . . which reduces a data
block . . . to a relatively small, fixed size identifier, the
True Name of the data block, such that the True Name of
the data block is virtually guaranteed to represent the
data block B and only data block B.” ’442 Patent at
12:58-63. Larger files are split into smaller segments.
The hash function is applied to each segment, and the resulting values are strung together into an indirect data
item. The True Name of this indirect data item is then
computed. This becomes the True Name of the larger
file. Id. at 14:16-35.
The summary of the invention describes multiple uses
for these True Names, including (1) to avoid keeping
multiple copies of a given data file, regardless of how files
are named; (2) to avoid copying a data file from a remote
location when a local copy is already available; (3) to access files by data name without reference to file structures; (4) to maintain consistency in a cache of data items
and allow corresponding directories on disconnected computers to be resynchronized with one another; (5) to confirm whether a user has a particular piece of data, regardless of its name; and (6) to verify that data retrieved
from a remote location is the intended data. ’442 Patent
at 3:49-4:37. The patents-in-suit are directed to various
specific aspects of this system.
2. Background Regarding Website Functions
In both the Twitch case and Amazon DJ Action, PersonalWeb’s infringement allegations involve website cache
management. PersonalWeb summarizes the following
relevant background regarding website functioning in
the Twitch Complaint. Typically, a “webpage base file”
includes text, formatting, and links to other web content

32a
such as images (“asset files”) that make up part of the
webpage. Twitch Compl. at ¶ 20. An individual’s web
browser retrieves a webpage base file from a remote web
server, and then the individual’s web browser retrieves
the referenced asset files from the same or different
servers. Id. at ¶ 22. The web browser retrieves a webpage base file or asset file by making a “GET” request to
a web server using the Hypertext Transfer Protocol
(“HTTP”). Id. The web server may respond to a GET
request with a response that includes the requested content and may include other information or instructions.
Id. In order to improve the speed of retrieving webpages, a web browser can store a webpage base file and
related asset files in a “cache” on the local computer running the browser. Id. at ¶ 24. The web browser can subsequently use cached versions of the webpage or asset
file, rather than having to download the same files repeatedly over the Internet. Id.
In addition to these local caches, files are frequently
cached on “intermediate” servers. Id. at ¶ 25. When
computers communicate on the Internet, they typically
do so through a chain of intermediate servers. Like the
local cache of a file, an intermediate server can use its
cache to deliver files downstream, rather than needing to
repeatedly make upstream requests for the same files
from the originating server. A webserver can include a
“cache-control” header along with an asset file. Id. at
¶ 26. This cache-control header tells downstream intermediate servers and web browsers whether and for how
long an asset file may be used, and when the asset file
should be refreshed.
Typically, website operators want a browser or intermediate server to use cached files as long as the files
have not changed. Id. at ¶¶ 27-28. By using cached files,

33a
downstream individuals can load webpages quicker, and a
web server saves bandwidth by not delivering the same
data repeatedly. However, website operators want a
browser or intermediate server to stop using a cached file
as soon as the file has changed. Id. The challenge, then,
is how to tell a browser when the file has changed such
that the browser should download a new version of the
file. PersonalWeb alleges that the “True Name” system
described by its patents provide a solution to this problem of forcing a browser to download a new version of a
file only when the file has changed. That solution is at
the heart of the instant litigation.
3. Background Regarding Amazon S3
Amazon’s Simple Storage Service (S3) provides webbased storage, which customers access using an Application Programming Interface (API) built according to the
HTTP specification. Markle Decl., ECF No. 315-18 ¶¶ 34. For example, customers use an HTTP “GET” command to request a file and an HTTP “PUT” command to
upload a file. Id. ¶ 4.
S3 generates “ETag” headers for the objects that it
stores. Id. ¶ 9. These ETags are essentially extra bits of
information that describe a file. For most objects, S3
generates the ETag using the MD5 hash algorithm. This
ensures that when a file’s contents change, the ETag also
changes. Id. Clients can use this ETag functionality for
cache management. When a client first retrieves an object from S3, it can store it in a local cache. Id. ¶ 10. If
the client subsequently requests the same file, S3 can
compare the ETag for the file stored on S3 with the
ETag for the same file stored in the client’s cache. If the
values are the same, “S3 saves time and network bandwidth by responding with a status code” to inform the
client that the file has not been modified. Id. ¶ 10. If the

34a
ETags do not match, S3 will instruct the client to download the newer version of the file. Id. ¶ 10.
Multipart upload (“MPU”) is one feature of S3. Id. ¶ 6.
MPU allows an S3 customer to upload a large object, like
a video file, as a series of parts. Id. Once all the parts
have been uploaded, S3 can assemble them into a single
file for storage. Id. MPU generates ETags for each uploaded part as well as for the completed object. Id. ¶ 9.
In the MPU context, S3 uses ETags to verify the integrity
of the uploaded data.
C. The Complaints in the Texas Action
On December 8, 2011, PersonalWeb sued Amazon and
its customer DropBox in the Eastern District of Texas,
alleging infringement of eight related patents by Amazon’s
S3 service. PersonalWeb Techs., LLC v. Amazon.com Inc.,
No. 6:11-cv-00658 (E.D. Tex. Filed Dec. 8, 2011). As discussed further below, the parties do not contest that the
Texas Action involved the same patents as the instant
MDL.
In the complaint in the Texas Action, PersonalWeb
alleged that Amazon infringed PersonalWeb’s patents “by
its manufacture, use, sale, importation and/or offer for sale
of . . . Amazon Simple Storage Service (S3) and Amazon
ElastiCache. Amazon further contributes to and induces
others to manufacture, use, sell, import, and/or offer for
sale these infringing products and services.” FAC Texas
Action, ECF No. 315-2 ¶ 20. “For PersonalWeb’s claims
of indirect infringement, Amazon’s end-user customers
and consultants are direct infringers of the Patents-inSuit within the PersonalWeb Patent Field.” Id. ¶ 52.
Nowhere in the Texas complaint did PersonalWeb discuss or limit its allegations to any specific features of S3.
Pursuant to the parties’ stipulation, on June 9, 2014,
the court in the Eastern District of Texas Action issued

35a
an order of dismissal with prejudice. ECF No. 315-7.
The court entered a final judgment dismissing all claims
on June 11, 2014. ECF No. 315-8.
D. The Complaints in the Instant Case
PersonalWeb alleges that the instant case revolves
specifically around use of ETags for cache management.
In its counterclaim against Amazon in the DJ Action,
PersonalWeb alleges that S3 uses ETags in response to
“conditional” HTTP GET requests to determine whether
a customer’s browser should reuse its cached data or download a new copy of the data. First Amended Counterclaim (“FACC”), ECF No. 257 ¶¶ 36-38. PersonalWeb
alleges that “Amazon thereby reduce[s] the bandwidth and
computation required by its S3 web host servers.” Id.
¶ 39. Specifically, PersonalWeb alleges that S3 can generate ETags for asset files that customers upload to S3.
Id. ¶ 41. In addition, even if the ETag is generated outside of S3, S3 uses the ETag in response to GET requests
to determine whether to send a new version of a file to a
browser. PersonalWeb’s counterclaim alleges infringement of the ’442 patent, ’310 patent, and ’420 patent.
Each of these allegations is specifically in relation to S3’s
cache control features.
The operative complaint in the Twitch case alleges
that Twitch “contracted with Amazon to use Amazon’s S3
system to store and serve at least some of ” Defendant’s
asset files. Twitch Compl. ¶ 41. The Twitch complaint
largely mirrors the counterclaim, including both the background section and the specific infringement allegations.
Compare Twitch Compl. ¶¶ 54-60 with FACC, ECF No.
257 ¶¶ 50-56. The Twitch complaint alleges infringement
of the three patents included in the Amazon Counterclaim as well as the ’544 Patent. Twitch Compl. ¶¶ 71-81.

36a
As an example of Twitch’s allegedly infringing conduct, the Twitch complaint includes “an asset file served
by S3 with a content-based ETag generated by S3 for
that asset file.” Twitch Compl. ¶ 51. This example relates to what PersonalWeb labels “Category 3” in the infringement contentions (which are auxiliary to the complaint). As discussed in more detail below with respect to
the scope of the summary judgment motion, PersonalWeb accuses four categories of infringing activities by
Twitch, of which only Category 3 involves use of S3. The
infringement allegations in the Twitch complaint largely
ascribe the infringing conduct to Twitch’s own origin
servers rather than to S3 servers. See, e.g., id. ¶ 57.
In its counterclaim against Amazon, PersonalWeb alleges that the customer defendants directly infringe PersonalWeb’s patents “because for each of the elements of
the asserted claims, the website defendants either perform or direct and control the vicarious performance of
each claimed element.” FACC, ECF No. 257 ¶ 23. Alternatively, PersonalWeb alleges direct infringement by
Amazon. Id. PersonalWeb sums up the relationship between its complaints against the customer defendants
and Amazon as follows:
In some of these actions, inter alia, PersonalWeb
alleges that the website defendants infringe certain
claims of the True Name patents through their control over and use of certain aspects of Amazon’s S3
system to distribute their webpage content so that
downstream intermediate caches and end-point
browsers only serve/use the latest content authorized by the website defendant. In those actions,
PersonalWeb also alleges that the certain website
defendants also infringe certain claims of the True
Name patents through the combination of their

37a
control over and use of these certain aspects of
Amazon’s S3 system and their control over and use
of certain aspects of the website architecture they
have used to produce webpages for their websites.
FACC, ECF No. 257 ¶ 22.
II. LEGAL STANDARD
“A party is entitled to summary judgment if the ‘movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law.’ ” City of Pomona v. SQM N. Am. Corp.,
750 F.3d 1036, 1049 (9th Cir. 2014) (quoting Fed. R. Civ.
P. 56(a)). The moving party has the burden of establishing
that there is no dispute as to any material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). “The court
must view the evidence in the light most favorable to the
nonmovant and draw all reasonable inferences in the
nonmovant’s favor.” City of Pomona, 750 F.3d at 1049.
“[T]he ‘mere existence of a scintilla of evidence in support of the plaintiff ’s position’ ” is insufficient to defeat a
motion for summary judgment. Id. (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 252 (1986)). “ ‘Where
the record taken as a whole could not lead a rational trier
of fact to find for the nonmoving party, there is no genuine issue for trial.’ ” Id. (quoting Matsushita Elec. Indus.
Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986)).
III. DISCUSSION
In its motion for summary judgment, Amazon argues
that (1) claim preclusion bars PersonalWeb’s claims in
this case, and (2) the Kessler doctrine independently bars
PersonalWeb’s claims. Mot. at 2. For the reasons discussed below, the Court concludes that claim preclusion
bars PersonalWeb’s claims regarding acts of infringement occurring prior to the final judgment in the Texas
Action. The Court concludes that the Kessler doctrine

38a
bars PersonalWeb’s claims accusing S3 regarding acts of
infringement after the final judgment in the Texas Action.
A. Scope of the Motion
As an initial matter, the parties do not dispute that
Amazon’s motion for summary judgment does not apply
to all of PersonalWeb’s claims in the Twitch case. PersonalWeb identifies four categories of infringing activities committed by the various customers. See De la Iglesia Declaration, ECF No. 336 ¶ 6; Twitch Infringement
Contentions, ECF No. 340-12. Category 1 infringement
involves ETags for webpage base files generated by nonS3 web servers. De la Iglesia Decl., ECF No. 336 ¶ 7.
Category 2 infringement involves ETags for webpage asset
files generated by non-S3 web servers. Id. ¶ 8. Category
3 infringement involves ETags for webpage asset files
generated by S3 web servers. Id. ¶ 9. Category 4 infringement involves fingerprints for webpage asset files
generated by non-S3 web servers. Id. ¶ 10. At the hearing,
Amazon agreed that Amazon’s summary judgment motion
cannot reach categories 1, 2, and 4. Trans., ECF No. 376
at 24. The parties also do not dispute that Amazon’s
motion applies to the Declaratory Judgment Action and
PersonalWeb’s counterclaims against Amazon.
As to Category 3, PersonalWeb alleges that customer
infringement in this category involves use of both S3 and
CloudFront. Opp. at 3. The parties do not contest that S3
and CloudFront are different products, nor that CloudFront was not accused in the Texas Action; however,
Amazon argues that PersonalWeb does not have standing
to assert claims related to CloudFront. Reply at 8-10.
PersonalWeb’s right to assert the patents-in-suit is
apparently governed by the agreement between Kinetech, Inc., the predecessor-in-interest to PersonalWeb,
and Digital Island, Inc., the predecessor-in-interest to

39a
Level 3 (Kinetech-Digital Island Agreement). ECF No.
363-1, Schedule 1.2. Under that agreement, Level 3 retains the exclusive right to enforce all of the patents in
the field of “the infrastructure services of one or more
managed global content delivery networks (CDNs) in
which a customer’s content is served faster, on average,
than if served from the customer’s origin server or the
CDN can typically serve more users than a customer’s
origin server alone; where at least some customer content on origin servers is replicated to possibly many alternate servers of the CDN, many of said CDN servers being
at [Internet Service Provider (ISP)] sites, and where users’
requests for origin content are satisfied by directing
them to CDN servers.” Id.
Although PersonalWeb argues that the Kinetech-Digital
Island Agreement does not preclude its right to assert
these infringement claims against Amazon’s CloudFront
product, the Court will not analyze and resolve this issue
without input from Level 3. Amazon is free to challenge
the inclusion of CloudFront in a separate motion and the
Court will expect Level 3 to either join in PersonalWeb’s
opposition or to file a separate opposition.
Accordingly, for purposes of the instant motion for
summary judgment, in the Twitch case the Court will only
consider whether claim preclusion applies to PersonalWeb’s Category 3 infringement claims based on use of
Amazon S3. In its briefing on the motion for summary
judgment, PersonalWeb does not argue that its counterclaim against Amazon involves CloudFront. See, e.g.,
Opp. at 6 (Category 3 involves CloudFront “if the website
operator separately pays CloudFront to serve its S3 webpage asset files.”) (emphasis added). The Court has reviewed the counterclaim against Amazon and the infringement contentions against Amazon, neither of which appear

40a
to mention CloudFront anywhere. ECF Nos. 257, 340-2.
Nonetheless, the Court notes that its analysis of claim
preclusion in the Amazon DJ Action is limited to S3 and
does not reach any allegations based on CloudFront.
B. Claim Preclusion
In a patent infringement case, the Federal Circuit applies the claim preclusion rules of the regional circuit.
See Brain Life, LLC v. Elekta Inc., 746 F.3d 1045, 1052
(Fed. Cir. 2014). In the Ninth Circuit, claim preclusion
applies where the prior suit: (1) “reached a final judgment
on the merits;” (2) “involved identical parties or privies;”
and (3) “involved the same claim or cause of action.”
Mpoyo v. Litton Electro-Optical Sys., 430 F.3d 985, 987
(9th Cir. 2005) (citation omitted). “Whether two claims of
infringement constitute the same claim or cause of action
is an issue particular to patent law” to which Federal
Circuit law applies. Brain Life, LLC, 746 F.3d at 1052.
1. Final Judgment on the Merits
Typically, this element is undisputed. Here, however,
PersonalWeb contends that there is no prior final judgment on the merits for purposes of claim preclusion because the contracted stipulation of dismissal in the Texas
Action contained express reservations limiting the dismissal’s preclusive effect. Opp. at 18.
A dismissal with prejudice “constitutes a final judgment on the merits, and prevents [the plaintiff] from reasserting the same claim in a subsequent action against
[the same defendant].” Int’l Union of Operating Eng’rs
v. Karr, 994 F.2d 1426, 1429 (9th Cir. 1993). The “parties
can draft the terms of a settlement agreement so as to
alter the preclusive effect of prior judgments,” but the
court will not “supply by inference what the parties have
failed to expressly provide [in the settlement agreement],
especially when that inference would suspend the appli-

41a
cation of this circuit’s principles of res judicata.” Id. at
1432-33 (citations omitted).
In the Texas Action, the parties’ stipulation of dismissal with prejudice provided:
Now, therefore, it is hereby stipulated, by and among
Plaintiffs PersonalWeb Technologies LLC and Level
3 Communications LLC and Defendants Amazon.com,
Inc., and Amazon Web Services LLC, that all claims
in the above captioned action shall, in accordance
with the concurrently submitted Order of Dismissal,
be dismissed with prejudice, that Defendant Amazon.com, Inc. and Amazon Web Services LLC retain
the right to challenge validity, infringement, and/or
enforceability of the patents-in-suit, via defense or
otherwise, in any future proceeding, and that each
party shall bear its own costs, expenses and attorneys’ fees. ECF No. 340-1.
The stipulation contained no additional language as to
the preclusive effect of the dismissal. In the Order of
Dismissal with Prejudice, the Texas court specified that
Amazon “retain[s] the right to challenge validity, infringement, and/or enforceability of the patents-in-suit via defense or otherwise, in any future suit or proceeding.”
ECF No. 315-7.
PersonalWeb submits several arguments in opposition. First, PersonalWeb argues that “PersonalWeb retained the right to pursue both the identical as well as
additional patent infringement claims pertaining to the
TrueName patents against Amazon, which is the only
reason Amazon expressly reserved all future, substantive
defense rights.” Opp. at 18. However, nothing in the
stipulation or judgment supports that contention. The
stipulation is remarkably and unequivocally one-sided in
favor of Amazon. The Court cannot infer that Personal-

42a
Web retained the right to assert future infringement contentions in the absence of express language in the stipulation. See Karr, 924 F.2d at 1432-33; see also Aspex
Eyewear, Inc. v. Marchon Eyewear, Inc., 672 F.3d 1335,
1346 (Fed. Cir. 2012) (“the parties’ decision to depart
from the normal rules of claim preclusion by agreement
‘must be express’ ”) (citation omitted).
Second, at the hearing PersonalWeb argued that at
the time of the stipulated dismissal, the parties understood that the dismissal would be construed according to
Aspex. Trans., ECF No. 376 at 58, 69. Specifically, PersonalWeb quoted from Aspex: “In order to construe the
settlement agreement to reach [new] products that were
introduced during the several-month period before the
settlement agreement was executed, we would have to
conclude that the parties intended to depart from the
normal rule that the products at issue in a patent suit are
those in existence at the time the suit is filed.” 672 F.3d
at 1346. Aspex has to do with whether a settlement agreement applies to new products and offers no support to
PersonalWeb. In this case, the very same S3 at issue in
the Texas Action is again at issue here.
Additionally, in its briefing, PersonalWeb cites declarations of PersonalWeb’s counsel and PersonalWeb’s
Non-Executive Chairman stating that the parties to the
Texas Action recognized that PersonalWeb retained the
right to assert infringement claims involving S3 in the
future. Hadley Decl. & Bermeister Decl., ECF Nos. 335,
337. However, at the hearing, PersonalWeb conceded
that it does not intend to argue that these declarations
should be interpreted to modify the express language of
the stipulated dismissal. Trans., ECF No. 376 at 57-58.
Because PersonalWeb did not reserve any rights in
the stipulated dismissal in the Texas Action, the Court

43a
finds that the dismissal with prejudice in the Texas Action
constitutes a final judgment on the merits for purposes of
the claim preclusion analysis in the instant case. See Karr,
994 F.2d at 1429 (dismissal with prejudice constitutes
judgment on the merits for purposes of claim preclusion).
2. Identical Parties or Privies
For the reasons discussed below, there appears to be
privity between Amazon and its customers. However,
the Court does not rely solely on this conclusion to bar
PersonalWeb’s claims. Even if the Court found no privity
between Amazon and its customers with respect to claim
preclusion, the Kessler doctrine would fill the gap and
thus preclude PersonalWeb’s claims. As discussed further below, the Kessler doctrine developed specifically to
address customer-manufacturer relationships.
There is no question that the Amazon DJ Action involves the identical parties as the Texas Action. As to the
customer cases, Amazon argues that the defendants are
in privity with Amazon (1) because their interests as customers are identical to Amazon’s own interests in the use
of S3, and (2) because Amazon is indemnifying the customer-defendants in the instant actions. Mot. at 8-9.
In the Ninth Circuit, “privity may exist . . . when there
is sufficient commonality of interest” between the parties. Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l
Planning Agency, 322 F.3d 1064, 1081 (9th Cir. 2003) (internal quotation and citation omitted). Specifically, the
Ninth Circuit has concluded that privity exists when the
interests of the party in the subsequent action were
shared with and adequately represented by the party in
the former action. See Shaw v. Hahn, 56 F.3d 1128,
1131-32 (9th Cir. 1995). Moreover, a “lesser degree of
privity is required for a new defendant to benefit from
claim preclusion than for a plaintiff to bind a new defendant

44a
in a later action.” Mars Inc. v. Nippon Conlux KabushikiKaisha, 58 F.3d 616, 619 (Fed. Cir. 1995).
As to whether the technology provider-customer relationship creates privity, Amazon relies primarily on another case from this district, Adaptix, Inc. v. Amazon.com,
Inc., No. 14-cv-01379-PSG, 2015 WL 4999944 (N.D. Cal.
Aug. 21, 2015). There, the court concluded that privity
existed between the manufacturers of 4G LTE-compatible
devices and the manufacturers’ customers because the
patent-holder “was fully aware that customers like the
John Does existed [and] were in possession of the allegedly infringing devices . . . yet failed to bring claims
against them [in the earlier litigation].” Id. at *6. In response, PersonalWeb cites Federal Circuit dicta and a
federal practice treatise for the general propositions that
a manufacturer “typically is not in privity with a [customer],” and unrelated parties “ordinarily do not have
authority to bind each other by litigation with third parties.” Transclean Corp. v. Jiffy Lube Int’l, Inc., 474 F.3d
1298, 1306 (Fed. Cir. 2007); 18 Wright et al., Federal
Practice & Procedure § 4460 (3d ed. 2018). These authorities state only general propositions that are entirely consistent with this Court’s analysis. Transclean Corp. recognizes that privity exists between a manufacturer and
customer “when the parties are so closely related and
their interests are so nearly identical that it is fair to
treat them as the same parties for purposes of determining the preclusive effect of the first judgment.” 474
F.3d at 1306 (internal quotations and citation omitted).
The Court agrees with Amazon that the defendants in
the customer cases are in privity with Amazon because
they share the same interest in the unfettered use of
Amazon’s web services, and Amazon adequately represented this interest in the Texas Action. See Shaw, 56

45a
F.3d at 1131-32 (privity exists when the interests of the
party in the subsequent action were shared with and adequately represented by the party in the former action);
see also Mars Inc., 58 F.3d at 619 (a “lesser degree of
privity is required for a new defendant to benefit from
claim preclusion than for a plaintiff to bind a new defendant
in a later action.”); Adaptix, 2015 WL 4999944, at *6 (customers are in privity with manufacturer for purposes of
determining preclusive effect of previous noninfringement
judgment against manufacturer). None of PersonalWeb’s
arguments displace the fact that in the instant MDL,
PersonalWeb sues Amazon’s customers for infringement
of the same patents related to use of the same technology
as PersonalWeb sued Amazon for in the Texas Action.
Moreover, PersonalWeb’s indirect infringement accusations against “Amazon’s end-user customers and defendants” in the Texas Action further support the conclusion
that Amazon and its customers share the same interest in
the use of S3.
As to the effect of the indemnification agreement, it is
undisputed that: (1) Amazon’s customer agreement has
contained an indemnification provision since June 2017,
prior to the date that PersonalWeb filed any of the complaints in the cases comprising this MDL; (2) sometime
following PersonalWeb’s filing of complaints in the customer cases, Amazon agreed to indemnify its customers;
and (3) during the alleged infringement period in this
case (January 2012 through December 2016, Opp. at 10),
Amazon’s customer agreement did not include the indemnification provision.
In support of its argument that privity flows from the
indemnity agreement, Amazon cites a case from the
Northern District of California with similar facts. See
SpeedTrack, Inc. v. Office Depot, Inc., 2014 WL 1813292

46a
(N.D. Cal. May 6, 2014), aff ’d, 791 F.3d 1317 (Fed. Cir.
2015). In SpeedTrack, the court found that the defendantcustomers were in privity with the supplier of software
for managing defendants’ websites, and thus the customerdefendants could assert res judicata defensively against
SpeedTrack based on the software supplier’s previous
noninfringement judgment. Id. at *6. The court explained that “[b]ecause [the software supplier] is contractually obligated to indemnify defendants for any losses
stemming from a finding of infringement, the court finds
that the parties are in privity.” Id. The court reasoned
that express limitations in the indemnification agreement, including language stating that “[neither] party is
the agent or representative of the other party,” merely
defined the limits of the indemnification agreement and
did not defeat the preclusive effect of the indemnification
agreement. Id. (emphasis omitted).
For its part, PersonalWeb does not dispute that an
indemnification agreement can create privity. Rather,
PersonalWeb argues that the indemnification agreement
in this case is insufficient to create privity because prior
to June 2017 Amazon was not contractually obligated to
indemnify its customers for infringement, and the agreement does not apply to claims “arising from infringement
by combinations of [Amazon’s services], with any other
product, service, software, data, content or method.” Opp.
at 9-10. In addition, PersonalWeb argues that privity is
improper because Amazon’s customer agreement states
that “neither party . . . is an agent of the other for any
purpose or has the authority to bind the other.” Opp. at
8. PersonalWeb fails to cite any authority in support of
its arguments regarding a lack of preclusive effect flowing
from the indemnification agreement.

47a
On the specific facts before it, the Court finds that the
indemnification agreement provides an additional basis
to find that there is privity between Amazon and its customers for the specific “purpose[ ] of determining the
preclusive effect of the first judgment.” Transclean Corp.,
474 F.3d at 1306. As the court in SpeedTrack explained,
PersonalWeb’s objections regarding the scope of the indemnification agreement “merely set[ ] an outer limit on
the relationship between [Amazon] and defendants.” 2014
WL 1813292, at *6. It is undisputed that Amazon’s customer agreement included an indemnification provision
prior to PersonalWeb’s filing of any of the customer cases,
and that Amazon expressly assumed the defense of its
customers sometime between when PersonalWeb filed
complaints in the customer cases and when Amazon filed
its First Amended Complaint in the DJ Action. Thus,
Amazon assumed the indemnification of its customers
prior to the consolidation of the MDL, and Amazon has
not turned away any customer who has asked for indemnification.
3. Same Cause of Action
Federal circuit law applies to the question of whether
two actions for patent infringement constitute the same
cause of action. See Brain Life, LLC, 746 F.3d at 1052.
The Federal Circuit considers two factors to determine
whether the same cause of action is present for claim
preclusion purposes: (1) “whether the same patents are
involved in both suits” and (2) whether “the products or
processes are essentially the same” in both suits. Senju
Pharm. Co. v. Apotex Inc., 746 F.3d 1344, 1349 (Fed. Cir.
2014) (emphasis omitted). “Accused devices are essentially the same where the differences between them are
. . . unrelated to the limitations in the claim of the pat-

48a
ent.” Acumed LLC v. Stryker Corp., 525 F.3d 1319, 1324
(Fed. Cir. 2008) (internal quotations and citation omitted).
As to the first factor, PersonalWeb asserted infringement of the ’791, ’442, ’310, and ’544 patents in the Eastern
District of Texas Action. PersonalWeb did not previously
assert infringement of the ’420 patent. In its briefing,
Amazon argues that the ’420 patent “makes no difference
as a matter of law” because it is a “continuation of the
twice-asserted ’442 patent, claims priority to the same
patent application as [the other patents-in-suit], shares
the same specification with the other [patents-in-suit],
and is limited by a terminal disclaimer.” Mot. at 4. At
the hearing, counsel for PersonalWeb stated on the record
that PersonalWeb does not contest that the ’420 patent
alleges the same claims at issue in the Texas Action.
Trans., ECF No. 376 at 75. Accordingly, the Court finds
that for purposes of claim preclusion, the scope of the
’420 patent is essentially the same as the previously asserted ’442 patent. See SimpleAir, Inc. v. Google LLC,
884 F.3d 1160, 1167 (Fed. Cir. 2018) (“[W]here different
patents are asserted in a first and second suit, a judgment in the first suit will trigger claim preclusion only if
the scope of the asserted patent claims in the two suits is
essentially the same.”).
As to the second factor, it is undisputed that the infringement contentions in Category 3 involve the use of
Amazon S3, the same product in dispute in the Texas Action. However, the parties dispute (1) the scope of the
contentions in the previous litigation and (2) whether claim
preclusion applies to different features of the same product.
a. Scope of the Contentions in the Previous
Litigation
PersonalWeb argues that claim preclusion does not
apply because “[t]he Texas infringement contentions were

49a
very specific to the MPU features of S3, not to S3 in general.” Opp. at 11. In particular, PersonalWeb argues that
the conditional HTTP GET request used in the cache
control feature central to the instant MDL is not used in
MPU. Opp. at 5. Amazon argues that the complaint in
the Texas Action involved the entire S3 product. Reply
at 4. Moreover, Amazon argues that PersonalWeb’s infringement contentions in the Texas Action included the
same use of GET and ETags that it accuses in the instant
litigation, and that PersonalWeb sought discovery related
to these commands in the Texas Action. Mot. at 13.
PersonalWeb’s argument regarding the scope of the
Texas Action is not persuasive. The complaint in the Texas
Action alleged that Amazon infringed “by its manufacture, use, sale, importation and/or offer for sale of . . .
Amazon Simple Storage Service.” Texas Compl., ECF
No. 315-2 ¶ 28. The complaint does not discuss any specific features of S3, does not include the words “upload”
or “download” anywhere, and does not limit PersonalWeb’s allegations to any specific features of S3. This evidence alone is sufficient for this Court to conclude that
the allegations in the Texas Action involved all of S3, not
just a particular feature. See Mars Inc., 58 F.3d at 61920 (looking to the prior complaint to determine whether
two cases related to the same set of transactions for purposes of claim preclusion).
Moreover, PersonalWeb’s enumerated patent claims
in the Texas Action included claims directed to downloading. ECF No. 340-2 at 1. PersonalWeb also made discovery requests in the Texas Action including the use of
GET operations related to downloading. ECF No. 350-6
(discovery request related to “conditional matching GET
Object operation, using an eTag, such as “If-Match” and
“If-None-Match.”); ECF No. 350-7 at 90:19-23, 91:5-8

50a
(deposition testimony on conditional GET commands).
The Court finds that this evidence supports Amazon’s
argument that the Texas Action included the specific
functionality accused in the instant case.
At the hearing, PersonalWeb offered two arguments
to get around this evidence. First, PersonalWeb argued
that there are disputed issues of material fact as to
whether the infringement contentions in the Texas Action
included use of the HTTP GET command. Trans., ECF
No. 376 at 51. PersonalWeb cited the declaration of Mr.
Hadley, who stated that the use of “conditional HTTP
GET requests containing ETags . . . was not a part of the
Texas Action and PersonalWeb made no contention that
such uses infringed any PersonalWeb patent.” Hadley
Decl., ECF No. 337 ¶ 4. Mr. Hadley explained that “[t]he
references to conditional HTTP GET requests in the
[Texas] Infringement Contentions” were related to showing that conditional HTTP GET requests are analogous
to MPU. Hadley Decl., ECF No. 337 ¶ 4.
The Court finds that Mr. Hadley’s declaration does
not create a genuine dispute of material fact because the
declaration is “uncorroborated and self-serving.” Villiarimo v. Aloha Island Air, Inc., 281 F.3d 1054, 1061 (9th
Cir. 2002). Mr. Hadley’s recollection of the gravamen of
the Texas Action does not dispute the plain meaning of
the Texas Complaint, infringement contentions, and discovery requests. Viewing the evidence in the light most
favorable to PersonalWeb, the evidence shows that the
discovery and infringement contentions in the Texas
Action primarily involved MPU but also encompassed the
HTTP GET (download) command. No reasonable jury
could conclude otherwise. See Scott v. Harris, 550 U.S.
372, 380 (2007) (“When opposing parties tell two different
stories, one of which is blatantly contradicted by the rec-

51a
ord, so that no reasonable jury could believe it, a court
should not adopt that version of the facts for purposes of
ruling on a motion for summary judgment.”). Mr. Hadley’s post hoc recollection of his litigation strategy is
simply insufficient to place this issue in dispute.
Second, PersonalWeb argues that the scope of the
Texas Action should be limited to what was included in
the infringement contentions, and not the complaint.
Trans., ECF No. 376 at 44-45. Even if the Court agreed
with PersonalWeb, the Texas infringement contentions
included the HTTP GET command, and thus PersonalWeb’s argument fails on its own terms. Moreover, the
case that PersonalWeb cites does not support its argument. Contrary to PersonalWeb’s description, Wowza
involved different versions of the same product. See
Adobe Sys. Inc. v. Wowza Media Sys., LLC, 72 F. Supp.
3d 989, 995 (N.D. Cal. 2014). During the prior case in
Wowza, the court struck Adobe’s “RTMP Enhanced” infringement theory because the theory was added to an
expert report but was not in the infringement contentions. Id. at 991. In the second case, the court held that
the RTMP Enhanced theory was not barred by claim
preclusion because the “RTMP Enhanced theory [was]
asserted against products released after the filing of the
infringement contentions in Wowza I.” Id. at 995. Thus,
the RTMP Enhanced theory was not barred in Wowza II
because it related to new products, not as PersonalWeb
would have it because the court limited its claim preclusion analysis to the infringement contentions.
In sum, the Court finds that both the complaint and
the infringement contentions in the Texas Action indisputably support the Court’s conclusion that the Texas
Action asserted infringement against all of S3 and was
not limited only to MPU.

52a
b. Different Features of the Same Product
Even if the Texas Action involved all of S3, PersonalWeb argues that claim preclusion does not apply because
“the accused features of S3 here and in the Texas Action
were completely different.” Opp. at 12. PersonalWeb
argues that “MPU is priced separately from the downloading and serving features of S3.” Opp. at 13. Amazon
argues that “multipart upload is a feature of S3, not a
separate product, and a feature that uses ETags no less
so than single-part upload files.” Mot. at 12.
As an initial matter, the Court finds that there is no
genuine dispute of material fact as to whether multipart
upload is a feature of S3, not a separate product. The
declaration that PersonalWeb cites explains that S3 customers are charged for each individual transaction involving uploading or downloading objects and for retaining
storage. Markle Decl., ECF No. 341-11 at 97-99, 101. At
most, this evidence shows that Amazon charges individual
prices for specific transactions within S3, not that MPU
is a separate product.
The Court notes that PersonalWeb does not argue
that S3 has changed in any way that is meaningful to
PersonalWeb’s infringement contentions, and Amazon
does not argue that the differences between multipart
upload and cache control are “unrelated to the limitations
in the claim of the patent.” Acumed LLC, 525 F.3d at
1324. Accordingly, the issue before the Court is the legal
question of whether claim preclusion applies where the
later suit involves different features of the same product
as the original suit.
Amazon has pointed the Court to a single case involving
similar facts. See ViaTech Techs., Inc. v. Microsoft Corp.,
No. 17-570, 2018 WL 4126522 (D. Del. Aug. 28, 2018).
The court there explained:

53a
Plaintiff accused Windows alone of directly infringing
the ’567 patent in the First Action. Now, reading the
Amended Complaint in the manner most favorable
to Plaintiff, Plaintiff ’s direct infringement claim in
the Second Action includes not only Windows, but
other items, such as media, as well. Plaintiff has
not alleged that adding media changes Windows,
nor alleged that Windows has changed since the
First Action. Given that Plaintiff previously asserted
that Windows infringed the ’567 patent, Plaintiff
cannot once again accuse Windows of infringing the
’567 patent, but argue that other items, like media,
are necessary for infringement. Likewise, Plaintiff
cannot repeatedly assert its patent against different
parts of Windows in separate suits, even if one accused part is on the left-hand side of Windows and
the other is on the right-hand side, so to speak.
Id. at *3 (internal citations omitted).
ViaTech is consistent with the doctrine of claim splitting. “It is well established that a party may not split a
cause of action into separate grounds of recovery and
raise the separate grounds in successive lawsuits.” Mars
Inc., 58 F.3d at 619. “A main purpose behind the rule
preventing claim splitting is to protect the defendant
from being harassed by repetitive actions based on the
same claim.” Clements v. Airport Auth. of Washoe Cty.,
69 F.3d 321, 328 (9th Cir. 1995) (internal quotation and
citation omitted). In the patent infringement context, the
Federal Circuit has explained that “claim preclusion bars
both claims that were brought as well as those that could
have been brought.” Brain Life, 746 F.3d at 1053 (emphasis in original).
PersonalWeb cites Young Engineers, Inc. v. U.S. Int’l
Trade Comm’n, 721 F.2d 1205, 1316 (Fed. Cir. 1983),

54a
which states the unremarkable proposition that “claim
preclusion [does not] apply to conduct of a different nature from that involved in the prior litigation.” PersonalWeb argues that “[n]one of Amazon’s cases suggest that
the commercial packaging of different features or aspects
of accused devices has any bearing whatsoever on whether
they are part of the ‘same transaction’ for claim preclusion purposes.” Opp. at 13.
PersonalWeb’s argument is unpersuasive. PersonalWeb fails to cite any cases that support its contention
that infringement allegations related to different features
of the same product give rise to separate causes of action.
The Court finds nothing in the relevant Federal Circuit
precedent to support PersonalWeb’s argument. See, e.g.,
Acumed LLC, 525 F.3d at 1324 (“[O]ne of the essential
transactional facts giving rise to a patent infringement
claim is the structure of the device or devices in issue . . . .
Adjudication of infringement is a determination that a
thing is made, used or sold without authority under the
claim(s) of a valid enforceable patent.” (emphasis added)
(internal quotations and citations omitted)). The doctrine
against claim splitting applies with full force here. Accordingly, the Court concludes that the fact that this suit
allegedly involves a different feature of S3 from the Texas
Action makes no difference to whether claim preclusion
applies.
4. Post-Judgment Claims of Infringement
Having concluded that claim preclusion applies to the
instant case, the Court now turns to Amazon’s argument
that claim preclusion applies “through the expiration of
the patents.” Mot. At 14. As a fallback, Amazon argues
that PersonalWeb’s claims are barred at least through
the date of final judgment in the Texas Action. Reply
at 10. PersonalWeb contends that claim preclusion only

55a
applies up to the date of its amended complaint in the
Texas Action. Opp. at 15. The Court concludes that claim
preclusion bars PersonalWeb’s claims through the date
of the final judgment in the Texas Action.
Recent Federal Circuit case law is conclusive on this
point. In Mentor Graphics Corp. v. EVE-USA, Inc., 851
F.3d 1275, 1301 (Fed. Cir. 2017) the court held that
“claim preclusion does not bar a patentee from bringing
infringement claims for acts of infringement occurring
after the final judgment in a previous case.” The court
explained that “for products made or sold after the previous actions, it [does] not matter whether the new products [are] essentially the same as the previously accused
products. . . . [T]he patentee could not have brought those
claims in the prior case.” Id. at 1299 (internal quotation
and citation omitted); see also Asetek Danmark A/S v.
CMI USA Inc., 852 F.3d 1352, 1365 (Fed. Cir. 2017)
(claim preclusion does not apply to post-dismissal conduct,
“even if all the conduct is alleged to be unlawful for the
same reason”); Brain Life, 746 F.3d at 1054 (claim preclusion does not bar infringement claims arising from
“acts occurring after final judgment was entered in the
first suit”).
Amazon argues that there is an intra-circuit split within
the Federal Circuit as to whether claim preclusion bars
infringement claims arising from acts occurring after the
date of the first judgment. Mot. at 14. Amazon argues
that, until the Federal Circuit resolves the alleged conflict en banc, Nystrom v. Trex Co., Inc., 580 F.3d 1281
(Fed. Cir. 2009) is the controlling precedent. In Nystrom,
the Federal Circuit held that claim preclusion barred the
patentee’s suit as to products that “reached the market
after the filing date of the original . . . complaint.” Id. at
1284. However, the Federal Circuit has since clarified

56a
that “[a]lthough the Nystrom court characterized its analysis as falling under the general rubric of res judicata
or claim preclusion, the principle that the court applied
was” that of issue preclusion. Aspex, 672 F.3d at 1343.
Accordingly, this Court will follow the Federal Circuit’s
own interpretation of Nystrom as not conflicting with
more recent Federal Circuit precedent directing that
claim preclusion only applies to acts of infringement that
pre-date the first judgment.
PersonalWeb argues that claim preclusion can only
apply up to the date of the amended complaint in the
Texas Action because PersonalWeb was not required to
assert any cause of action that it acquired during the
pendency of the Texas Action, and that any such cause of
action is not barred by claim preclusion. Opp. at 16. PersonalWeb submits that Gillig, Aspex, and Dow Chemical
support its argument. Opp. at 15; Trans., ECF No. 376
at 38-42. PersonalWeb’s argument that it was not required to assert any new cause of action is true as far as
it goes, but that does not help PersonalWeb here. As discussed above, this case involves the same cause of action
as the Texas Action. The cases that PersonalWeb cites
do not say otherwise.
Gillig, which did not involve patent infringement claims,
states that “The res judicata doctrine does not apply to
new rights acquired during the action which might have
been, but which were not, litigated.” Gillig v. Nike, Inc.,
602 F.3d 1354, 1363 (Fed. Cir. 2010) (citation omitted).
Quoting this language, Aspex explains that “[i]n patent
cases, this court has applied the general rule that res judicata does not bar the assertion of ‘new rights acquired
during the action which might have been, but were not,
litigated.’ ” Aspex, 672 F.3d at 1345 (quoting Gillig, 602
F.3d at 1363). In Aspex, the Federal Circuit concluded

57a
that claim preclusion does not apply to products that
were not in existence at the time of the filing of the prior
complaint. See id. Unlike Aspex, the instant case does
not involve new products that were not in existence at the
time of the filing of the prior complaint. Moreover,
Aspex explicitly held that claim preclusion could apply to
new products introduced between the filing of the complaint and the judgment in the previous case, if the patentee elected to have those products included in the previous action. See id. Thus, Aspex and Gillig do not support the conclusion that claim preclusion only applies up
to the date of the complaint in the prior action.
At the hearing, PersonalWeb specifically directed the
Court to the holding in Dow Chemical, Trans., ECF No.
376 at 39, a case it had cited only once in a string cite in
its papers, Opp. at 17. In Dow Chemical, the Federal
Circuit reiterated that “traditional notions of claim preclusion do not apply when a patentee accuses new acts of
infringement, i.e., post-final judgment, in a second suit.”
Dow Chem. Co. v. Nova Chems. Corp., 803 F.3d 620, 627
(quoting Brain Life, 746 F.3d at 1056) (emphasis added).
In the language quoted by counsel for PersonalWeb, the
Dow Chemical court applied the general rule on claim
preclusion to the specific facts of that case to explain why
claim preclusion did not apply from a previous judgment
to a period of supplemental damages. Id. (“Here, the
bulk of the supplemental damages accrued after the
[previous judgment], and it is clear that claim preclusion
also does not apply to damages accruing after the filing of
the complaint and not the subject of the first judgment.”).
Aspex and Dow Chemical are both consistent with Federal Circuit precedent instructing that claim preclusion in
patent infringement cases applies up to the date of the

58a
judgment in the previous case, at least when the same
product is involved in both cases.
5. Summary
For the reasons discussed above, the Court finds that
claim preclusion applies because the Texas Action ended
in a final judgment, involved the same parties or privies,
and involved the same cause of action. Claim preclusion
applies to PersonalWeb’s claims up to the date of the final
judgment in the Texas Action.
C. Kessler Doctrine
Amazon contends that the Kessler doctrine bars all of
PersonalWeb’s S3 claims, “including claims against Amazon
customers for conduct occurring after the date of the
Texas judgment.” Mot. at 15. Amazon argues that the
dismissal with prejudice in the Texas Action “created a
trade right [under Kessler] that conferred upon Amazon
and its customers the status of non-infringers and upon
S3 the status of a non-infringing product.” Mot. at 17.
PersonalWeb argues that Kessler is “rooted in . . . issue
preclusion,” and accordingly requires that the question of
infringement was actually litigated in the prior case.
Trans., ECF No. 376 at 65; Opp. at 19. Under issue preclusion rules, PersonalWeb argues that the dismissal with
prejudice in the previous case is insufficient to trigger
preclusion under the Kessler doctrine. Id. In addition,
PersonalWeb argues that Kessler does not apply to the
cache-busting feature of S3 because that feature has never
been “held to be non-infringing by any court.” Opp. at
20. For the reasons discussed below, the Court finds that
the Kessler doctrine bars PersonalWeb’s post-judgment

59a
infringement claims against Amazon and its customers
related to use of S3.2
In Kessler v. Eldred, 206 U.S. 285, 288 (1907), the Supreme Court held that a prior noninfringement judgment
conferred upon the manufacturer “the right to manufacture, use, and sell” the adjudged non-infringing product.
Accordingly, the Court concluded that “it is Kessler’s
right that those customers should, in respect of the articles before the court in the previous judgment, be let
alone by [the patentee].” Id. at 289. The Federal Circuit
has recently affirmed the continued vitality of the Kessler
doctrine, explaining that “the Court granted Kessler a
limited trade right to continue producing, using, and selling the [adjudged non-infringing product] . . . even when
the acts of infringement occurred post-final judgment
and even when it was third parties who allegedly engaged in those acts of infringement.” Brain Life, 746
F.3d at 1056. The Federal Circuit explained that “[t]he
Kessler doctrine fills the gap between [claim preclusion
and issue preclusion] doctrines.” Id.
The Court finds persuasive the only case that the parties have identified that squarely addresses the applicability of Kessler based on a prior dismissal with prejudice. In Molinaro v. Am. Tel & Tel. Co., 460 F. Supp.
673, 675 (E.D. Penn. 1978), the previous suit was dismissed with prejudice as a sanction for failure to comply
with discovery orders. The Molinaro court explained
2

At the hearing, Amazon acknowledged that they have not seen a
case specifically addressing whether Kessler applies to claims arising
prior to the final judgment in the previous case. Trans., ECF No.
376 at 71. Because this Court concludes that claim preclusion bars
PersonalWeb’s claims against both Amazon and its customers prior
to the previous judgment, this Court does not need to consider
whether Kessler also applies to that time period.

60a
that the “analysis of the applicability of the Kessler doctrine is not altered by the fact that the infringement
question in the instant case was not actually litigated in
the [prior] suit.” Id. at 676. Molinaro is consistent with
Federal Circuit precedent, which explains that the Kessler
doctrine applies to claims that “could have been brought”—
and were necessarily not adjudicated—in the prior action.
See Brain Life, 746 F.3d at 1059 (method claims were not
actually litigated in the prior action and thus were not
barred by issue preclusion but were barred by Kessler).
PersonalWeb seeks to distinguish Molinaro on two
grounds, neither of which is persuasive. First, PersonalWeb fails to explain how the fact that Molinaro was
based on a dismissal entered as a sanction for failure to
comply with discovery orders makes any difference to
the preclusive effect of the dismissal. Opp. at 19. At the
hearing, PersonalWeb argued that a judicial sanction of
dismissal should be treated differently than the parties’
voluntary stipulation to dismiss the case because of the
punitive aspect of the sanction. Trans., ECF No. 376 at
62-63. Other than the emotional appeal of that distinction, PersonalWeb points to no authority or anything
rooted in the Kessler doctrine to support its argument.
Second, PersonalWeb’s characterization of Molinaro
as “a non-controlling 50 year-old district court case,”
Opp. at 19, is inconsistent with the Federal Circuit’s 2015
opinion citing Molinaro approvingly. See Speedtrack,
Inc. v. Office Depot, Inc., 791 F.3d 1317, 1326 (2015).
Although Speedtrack cited Molinaro for the specific
proposition that a customer could invoke the Kessler doctrine, nothing in Speedtrack suggested that the Federal
Circuit disagreed with Molinaro as to the preclusive effect
of a dismissal with prejudice.

61a
In its briefing and at the hearing, PersonalWeb cited
numerous additional cases that it argues require actual
adjudication of noninfringement in order for Kessler to
apply. Trans., ECF No. 376 at 68; Opp. at 19. As discussed above, neither Brain Life nor Speedtrack supports PersonalWeb’s argument. In MGA, Inc. v. General
Motors Corp., 827 F.2d 729, 734 (Fed. Cir. 1987), the
Federal Circuit applied Kessler as the equivalent of nonmutual defensive issue preclusion. However, nothing in
MGA limits Kessler to the issue preclusion context, and
Brain Life cites MGA approvingly for its discussion of
Kessler. See Brain Life, 746 F.3d at 1056-57. None of
the additional cases that PersonalWeb cites support PersonalWeb’s argument that Kessler requires actual adjudication of non-infringement. See Mentor Graphics, 851
F.3d at 1301 (Kessler does not apply when previous case
ended with grant of a license to the alleged infringer);
Foster v. Hallco Mfg. Co., Inc., 947 F.2d 469, 479-80 (Fed.
Cir. 1991) (addressing requirements for claim preclusion);
Wowza, 72 F. Supp. 3d at 996 (concluding that Kessler
did not apply where earlier case was still pending at time
that second case was filed).
As to PersonalWeb’s attempt to limit Kessler to the
MPU feature of S3, the Court finds the Brain Life opinion
instructive. In the first suit, Brain Life dismissed without prejudice their method claims and pursued only their
apparatus claims. The Federal Circuit reasoned that the
products in question “have acquired the status of noninfringing products as to the [relevant] patent,” and accordingly “all claims that were brought or could have been
brought in the first suit” were barred under Kessler in the
second suit. Brain Life, 746 F.3d at 1058-59. PersonalWeb fails to identify any authority suggesting that the
question of whether this case involves the same product

62a
as the prior case should be any different under Kessler
than under claim preclusion. Accordingly, this Court
concludes that the Kessler doctrine bars PersonalWeb’s
current suit as to both Amazon and its customers for all
claims related to use of S3 after the prior final judgment.
IV. ORDER
For the foregoing reasons, IT IS HEREBY ORDERED that:
1. Amazon’s motion for summary judgment is
GRANTED with respect to Amazon’s DJ Action and
PersonalWeb’s counterclaim against Amazon. Amazon’s
motion is GRANTED with respect to the Category 3 allegations involving use of Amazon Simple Storage Service
(“S3”) in the Twitch case.
2. PersonalWeb is barred by claim preclusion from
asserting any claim of infringement in any case based on
use or operation of S3 and is barred from asserting any
patent infringement claim against Amazon or an Amazon
customer in which a feature or operation of S3 is alleged
to infringe any claim of U.S. Patent Nos. 5,978,791,
6,928,442, 7,802,310, 7,945,544, and 8,099,420 (the “patents-in-suit”), up to the date of the final judgment in the
Texas Action.
3. PersonalWeb is barred, under the Kessler doctrine,
from asserting any claim of infringement in any case
based on use or operation of S3 and is barred from asserting any patent infringement claim against Amazon or
an Amazon customer in which a feature or operation of
S3 is alleged to infringe any claim of the patents-in-suit.
4. Amazon’s motion for summary judgment related
to CloudFront is DENIED WITHOUT PREJUDICE.
Amazon is free to challenge the inclusion of CloudFront
in a separate motion. If Amazon files such a motion, the

63a
Court will expect Level 3 to either join in PersonalWeb’s
opposition or to file a separate opposition.
5. Amazon’s requested relief to preclude assertion that
S3 meets any limitation of any claim of the patents-in-suit
is DENIED as beyond the scope of the motion.
6. The Parties shall advise the Court as to which customer cases are fully adjudicated by this Order, and
which claims of the remaining cases are fully adjudicated
regarding accused S3 no later than April 3, 2019.

64a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
NO. 2019-1918
————
IN RE: PERSONALWEB TECHNOLOGIES LLC
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
PATREON, INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
DICTIONARY.COM, LLC,
Defendant-Appellee,

65a
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
VOX MEDIA, INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
VICE MEDIA, LLC,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,

66a
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
OATH INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
BUZZFEED, INC.,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
POPSUGAR, INC.,
Defendant-Appellee,

67a
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
PERSONALWEB TECHNOLOGIES LLC,
Plaintiff-Appellant,
LEVEL 3 COMMUNICATIONS, LLC,
Plaintiff,
v.
ZIFF DAVIS, LLC,
Defendant-Appellee,
AMAZON.COM, INC.,
AMAZON WEB SERVICES, INC.,
Intervenors.
————
Appeal from the United States District Court
for the Northern District of California in
Nos. 5:18-cv-05599-BLF, 5:18-cv-05606-BLF,
5:18-cv-05969-BLF, 5:18-cv-05970-BLF,
5:18-cv-06044-BLF, 5:18-cv-06046-BLF,
5:18-cv-06612-BLF, 5:18-cv-07119-BLF,
5:18-md-02834-BLF, United States
District Judge Beth Labson Freeman.
————
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
————
November 10, 2020
————

68a
Before PROST, Chief Judge, NEWMAN, LOURIE,
BRYSON1, DYK, MOORE, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.2
PER CURIAM.
ORDER
Appellant PersonalWeb Technologies, LLC filed a
combined petition for panel rehearing and rehearing en
banc. A response to the petition was invited by the court
and filed by Appellees Buzzfeed, Inc., Dictionary.com,
LLC, Oath Inc., Patreon, Inc., Popsugar Inc., Vice Media,
LLC, Vox Media, Inc., and Ziff Davis, LLC and Intervenors Amazon Web Services, Inc. and Amazon.com, Inc.
The petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en banc
was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November 17,
2020.
FOR THE COURT
November 10, 2020
Date

1

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Bryson participated only in the decision on the petition for panel rehearing.
2
Circuit Judge O’Malley did not participate.

